<html>
<title> - REDUCING THE THREAT OF NUCLEAR TERRORISM: A REVIEW OF THE DEPARTMENT OF ENERGY'S GLOBAL THREAT REDUCTION INITIATIVE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
               REDUCING THE THREAT OF NUCLEAR TERRORISM:
                 A REVIEW OF THE DEPARTMENT OF ENERGY'S
                   GLOBAL THREAT REDUCTION INITIATIVE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2005

                               __________

                           Serial No. 109-67

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-641                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                    ------------------------------  
                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

        David Cavicke, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                    ED WHITFIELD, Kentucky, Chairman

CLIFF STEARNS, Florida               BART STUPAK, Michigan
CHARLES W. ``CHIP'' PICKERING,         Ranking Member
Mississippi                          DIANA DeGETTE, Colorado
CHARLES F. BASS, New Hampshire       JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  JAY INSLEE, Washington
MIKE FERGUSON, New Jersey            TAMMY BALDWIN, Wisconsin
MICHAEL C. BURGESS, Texas            HENRY A. WAXMAN, California
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Ferguson, Charles D., Fellow, Science and Technology, Council 
      on Foreign Relations.......................................    31
    Longsworth, Paul, Deputy Administrator for Defense Nuclear 
      Proliferation, National Nuclear Security Administration....     4
    McGaffigan, Edward, Jr., Commissioner, U.S. Nuclear 
      Regulatory Commission......................................    12
    Rohlfing, Joan B., Senior Vice President for Programs and 
      Operations, Nuclear Threat Initiative......................    37

                                 (iii)

  


REDUCING THE THREAT OF NUCLEAR TERRORISM: A REVIEW OF THE DEPARTMENT OF 
              ENERGY'S GLOBAL THREAT REDUCTION INITIATIVE

                              ----------                              


                         TUESDAY, MAY 24, 2005

                  House of Representatives,
                  Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2322, Rayburn House Office Building, Hon. Ed Whitfield 
(chairman) presiding.
    Members present: Representatives Whitfield, Walden, 
Burgess, and Inslee.
    Staff present: Mark Paoletta, chief counsel; Dwight Cates; 
investigator; Chad Grant, legislative clerk; Voncille Hines, 
minority research assistant; and Chris Knauer, minority 
investigator.
    Mr. Whitfield. At this time I will call this hearing to 
order. This is the Subcommittee on Oversight and Investigations 
for the Energy and Commerce Committee, and the topic of today's 
hearing is Reducing the Threat of Nuclear Terrorism: A Review 
of the Department of Energy's Global Threat Reduction 
Initiative.
    I want to welcome Mr. Inslee here with us today. Ranking 
Minority Member Bart Stupak is controlling time on the floor on 
the stem cell debate, and so Mr. Inslee will be serving as the 
ranking nmnority member at least at the beginning of this 
hearing, and I am glad you areyou were here, Mr. Inslee.
    At this time I will go on and make my opening statement.
    Over the past several years the Oversight and 
Investigations Subcommittee has held several hearings on 
nuclear terrorism prevention. We must prevent any effort by 
terrorist organizations to obtain nuclear materials for use 
against us in a radiological dispersion device or a nuclear 
device. A comprehensive defense against nuclear terrorism 
deserves our sustained attention.
    Our earlier hearings reviewed the efforts of the Bureau of 
Customs and Border Protection to target and inspect sea cargo 
containers to stop nuclear material from entering the country 
at the border. These efforts include the installation of 
radiation portal monitors at all ports of entry that can detect 
nuclear material inside cargo containers.
    Today the hearing will review DOE's Global Threat Reduction 
Initiative. The GTRI program provides an additional layer of 
defense on top of the effort of the Bureau of Customs and 
Border Protection. While the Bureau of Customs and Border 
Protection is primarily focused on detecting nuclear material 
at our borders, the GTRI program is focused on identifying, 
removing, and securing vulnerable nuclear material before the 
terrorists can even attempt to smuggle it into our country.
    The GTRI program also has an extensive domestic effort to 
secure radioactive materials here in our country that could be 
used in a dirty bomb. This is a worldwide effort, and the 
challenges are significant. For decades the U.S. and Russia 
have promoted the peaceful use of nuclear power around the 
world by sharing tons of highly enriched uranium. With dozens 
of foreign countries now in this age of terrorism, DOE is 
focused on recovering this highly enriched uranium and 
converting research reactors to the use of LEU.
    The GTRI program has identified 25 research reactors here 
in the U.S. that will be converted from highly enriched uranium 
fuel. Already 11 reactors have been converted, including two 
domestic research reactors which were announced last month at 
Texas A&M University and the University of Florida.
    HEU is a major threat because it could be used in a nuclear 
bomb that could produce a catastrophic explosion. However, the 
threat of a radiological dispersion device that contaminates an 
area with a smaller amount of radiological material is also a 
major concern. The GTRI program is working closely with the 
Nuclear Regulatory Commission to identify, recover, and dispose 
of sealed sources here in the U.S.
    It is important to understand that sealed sources licensed 
by the NRC are essential for medical-industrial purposes and 
will continue to be used in this country every day. However, 
until recently, there has been no program to recover these 
materials when they were abandoned, discarded, or no longer 
necessary for their intended use.
    NRC is working to upgrade security for sealed sources and 
has developed a national tracking system for high-risk sealed 
sources in use across the country. I look forward to testimony 
from the NRC and the NNSA on these important programs today. I 
also look forward to input from witnesses from the Nuclear 
Threat Initiative and the Council on Foreign Relations, who 
will provide their input on the current status of the GTRI 
program's efforts to identify, remove, and secure nuclear 
materials.
    With that I yield back my 51 seconds and recognize Ranking 
Minority Member Inslee.
    Mr. Inslee. Thank you, Mr. Chairman. As the Chair 
indicated, Mr. Stupak is managing the stem cell issue right 
now. I know he has a tremendous interest in the Global Threat 
Reduction Initiative. In fact, he organized a secure briefing 
on this some time ago and we appreciate his leadership, and I 
will try to fill in for him with whatever skills I can bring to 
bear.
    This is a very important thing in my district. With Seattle 
and Takoma Ports in the State of Washington, we recognize the 
risk associated with this. We recognize how much of the 
material is in the world today, much of it still insecure, some 
of it padlocked, some of it under cybersecurity, some of it 
very well secured, and much of it perhaps maybe a chain link 
fence, maybe less. So I can tell you that this is of great 
concern to my constituents and myself as well, because I 
consider it probably the greatest threat that really does exist 
today. And there are many, but I consider this one to be 
preeminent and probably the one that we can do the most about 
by identifying and securing this particular material.
    The initiative has had some major successes today, but we 
have got a lot of work to do, and I will be particularly 
interested in a review and discussion today about how the 
agencies are working together. This is a situation because we 
have multiple jurisdiction of agencies. It does strike me that 
there are potentials, that there are cracks not being filled 
and perhaps duplication of effort. I am very interested to see 
how the agencies are working together, particularly on the 
international and domestic side.
    Obviously, the purpose of the initiative is to remove or 
secure high-risk nuclear and radiological materials around the 
world, and this is an effort that we do want to be 
comprehensive in addressing this material threat from poorly 
guarded facilities.
    Some of these materials are found domestically, which is 
why we have the Nuclear Regulatory Commission before us today 
so we can understand better how the NRC interacts with DOE in 
this effort. Of course, we have a major international 
component, as carried out in cooperation with the Department of 
State and a range of international organizations such as the 
IAC.
    To this point the committee has conducted only limited 
oversight of this program. Nonetheless, what we have observed 
does appear encouraging, at least to me.
    The initiative has successfully removed nuclear materials 
from a variety of sources throughout the globe. It has also 
successfully secured material at various sites.
    And, Mr. Chairman, I will say that this is a great 
investment of taxpayer dollars. We have got to make sure that 
they are comprehensive.
    With that in mind, I will be looking forward to several of 
the questions we will have today, if I can allude to them now 
and perhaps the witnesses can keep them in mind.
    First, do we have a list of priority sites based on a 
realistic threat assessment and material risk? How do we 
establish that prioritization? Have we done that on a multiple-
agency basis?
    Second, is there general agreement among the key agencies 
that we are addressing the most troubling sites and doing so in 
a timely manner? Or are there disagreements in that regard and 
how do we resolve them?
    Third, and perhaps most important, the one that we are 
responsible for on this side of the desk, are we adequately 
funding this effort, and is the initiative working as 
expeditiously as possible? In addition to adequate financial 
support, does the program have sufficient support from the U.S. 
State Department to place priority sites high on an 
international agenda?
    So I look forward to that discussion today and yield back 
the balance of my time.
    Mr. Whitfield. Thank you, Mr. Inslee.
    [Additional statement submitted for the record follows:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Chairman Whitfield, thank you for holding this important hearing. 
Although the words ``homeland security'' are not in its name, the 
Department of Energy is really the leader in homeland security in 
several areas. This hearing is about an important homeland security 
issue--reducing the threat of nuclear terrorism.
    The core purpose of the Department of Energy is to ensure the 
country has a fully functioning nuclear weapon stockpile that continues 
to serve as our primary deterrent against acts of war on our nation.
    The Department of Energy's extensive knowledge and experience in 
nuclear weapons research and production is also relied upon to prevent 
the spread of nuclear weapons and nuclear materials. DOE is the 
worldwide leader in providing critical nuclear non-proliferation 
assistance to several federal agencies and international governments, 
and also provides on-the-ground programs to identify, secure, and 
remove vulnerable nuclear materials before they fall into the hands of 
terrorists.
    There has not been a successful attempt by any terrorist 
organization to obtain and use radiological material in a ``dirty 
bomb'' or a nuclear device in this country. However, a comprehensive 
strategy to prevent nuclear terrorism is needed to keep nuclear 
materials out of the hands of terrorists, and to prevent a successful 
attack in the event terrorists were to accumulate nuclear materials.
    A comprehensive strategy requires several lines of defense, but 
also a good offense. The Global Threat Reduction Initiative is leading 
the charge for the offense. With the assistance of the Nuclear 
Regulatory Commission, the GTRI program has recovered over 10,000 
sealed sources containing radioactive material here in the U.S. that 
otherwise may have been abandoned in un-secure facilities across the 
country.
    The GTRI program is also working to prioritize the recovery of 
highly enriched uranium and radiological materials in countries where 
terrorists are known to operate.
    Today we will learn about several successful efforts by GTRI around 
the world. While these success stories are notable, the GTRI program 
was just recently created, and I am concerned that the program lacks a 
set of performance measures that can be used to clearly track overall 
progress from year to year. I hope this issue can be examined today. I 
want to express my full support for DOE's ongoing effort in preventing 
nuclear terrorism. I yield back the balance of my time.

    Mr. Whitfield. At this time I will welcome the first panel, 
and before I introduce them I would like to ask unanimous 
consent that all members of the subcommittee may have up to 7 
days in which to introduce their opening statement, 
particularly since so many of them are not here this afternoon. 
So, without objection, so ordered.
    At this time on Panel I, we are very pleased to have with 
us this afternoon Mr. Paul Longsworth, who is the Deputy 
Administrator for Defense Nuclear Proliferation at the National 
Nuclear Security Administration. We welcome you, Mr. 
Longsworth.
    In addition, Mr. Ed McGaffigan who is a Commissioner at the 
U.S. Nuclear Regulatory Commission. We welcome you.
    At this time, Mr. Longsworth, we will call on you for a 5-
minute opening statement.

STATEMENTS OF PAUL LONGSWORTH, DEPUTY ADMINISTRATOR FOR DEFENSE 
       NUCLEAR PROLIFERATION, NATIONAL NUCLEAR SECURITY 
ADMINISTRATION; AND EDWARD McGAFFIGAN, JR., COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Longsworth. Thank you, Mr. Chairman, Mr. Inslee.
    I am going to talk about initially our five-pronged 
approach to ensure that the materials, the technology, and the 
expertise that are required in any nuclear--any weapons of mass 
destruction program do not fall into the wrong hands.
    First, our programs at NNSA. We want to secure and account 
for nuclear materials in Russia and the former Soviet Union and 
we are making progress in that area. We have accelerated our 
programs to secure an estimated 600 metric tons of weapons-
usable material in Russia. To date, we have secured over 70 
percent of the sites where these materials are stored, and we 
are on course to finish all of our work in Russia by 2008, a 
full 2 years ahead of the schedule established prior to 2001. 
In fact, this year, we will complete all of our work at the 
Russian Navy nuclear weapons sites.
    Second, we want to establish the capability to detect the 
movement or trafficking of weapons-usable materials. Through 
our programs like Second Line of Defense and the Megaports 
Initiative, we are working with selected countries to install 
radiation detection equipment at key transit choke points 
throughout the world such as seaports, airports and land border 
crossings, and this committee has done a lot of work in this 
area. We are currently operating more than 50 land border 
crossing detectionsites, and we expect to add several more this 
year.
    Third, we want to stop the production of new fissile 
material in Russia and eliminate existing stockpiles. 
Currently, Russia operates three reactors that produce 
plutonium. They need these reactors for district heating and 
electricity, but they produce about 1.2 metric tons of 
plutonium every year. That is enough, roughly, for a couple of 
new nuclear warheads every week.
    We are working with the Russians to shut down these 
reactors and replace them with coal-fired plants, and we are on 
track. We began work at the first site in February, at Seversk, 
and we will begin at Zheleznogorsk we hope later this year or 
early next year.
    Fourth, we want to eliminate existing material. We do this 
through several programs. The HEU purchase agreement, which I 
know the chairman is intimately very familiar with, that is a 
very successful program. This summer we will reach the halfway 
point in blending down 500 metric tons of weapons origin HEU 
from Russian warheads. As an aside, half of U.S. uranium 
requirements are met by dismantled Russian nuclear warheads. So 
nuclear is 20 percent of the overall U.S. energy mix. That 
means 1 out of every 10 of these lights in this hearing room is 
fueled by dismantled Russian nuclear warheads. So it is a very 
successful program.
    Fifth, we want to eliminate or consolidate the remaining 
weapons-usable nuclear material and radiological materials that 
exist throughout the remainder of the world. This past May, the 
Department of Energy launched the Global Threat Reduction 
Initiative, which is the topic of the hearing here today. As 
the chairman said, we hope to identify, secure, recover, and 
disposition vulnerable high-risk, nuclear and radiological 
materials that pose a threat to the international community and 
to do so as quickly as possible.
    GTRI works to achieve this mission by converting targeted 
research reactors around the world that use highly enriched 
uranium to a low-enriched uranium fuel. We try to then 
repatriate the spent fuel and fresh fuel from these facilities 
back to the U.S. if it's U.S. origin or back to the Russian 
Federation if it's Russian or Soviet origin.
    We secure high-risk vulnerable radiological materials that 
might pose a threat to the United States or our allies, and we 
identify and address nuclear and other radiological materials 
that had not been previously addressed, and we call these gap 
materials. These are, in many cases, materials that are neither 
Russian nor U.S. origin that might have been created in an 
indigenous program in a country around the world.
    The reason we are so concerned with this material is 
obvious. If terrorists were able to get, particularly 
fissionable material, HEU or plutonium, they would have 
overcome the most critical step in constructing a nuclear 
weapon. According to the International Atomic Energy Agency, 
only 25 kilograms of highly enriched uranium is needed for a 
nuclear explosive device. Therefore, any civilian research 
reactor, especially those that possess HEU, we believe we need 
to focus on on a time-critical basis.
    We prioritize our work by applying risk-based approaches to 
identify vulnerable nuclear materials and radiological 
materials. This risk-based approach is informed by several 
criteria, including but not limited to the type and quantity of 
the material involved, the security conditions at the site 
where the material is located, and the regional and country 
issues where the material is actually located. So how secure is 
the country; is there known terrorist activities in that 
country?
    To help ensure that GTRI is prioritizing our efforts, we 
conducted last year the Global Materials Removal and Research 
Reactor Security Study. This study drew from both classified 
and unclassified data and there was an attempt to put into one 
classified report, using all sources, the locations and 
quantities of all materials that we view to be a risk to the 
United States. We use that report as a living document, and 
that is the report that guides where we do our work and what 
materials we focus on.
    I would like to go just very briefly to the various 
component of GTRI. I mentioned that we are trying to convert 
the reactor cores that use HEU. We do this by converting cores 
that can be converted, using existing technology as quickly as 
possible. We also are developing a new variety of fuel to 
convert cores that, because of the way the reactor is designed 
or the mission that it has to carry out, requires a much higher 
density of neutrons. That variety of fuel does not exist today. 
We have targeted 105 reactors worldwide. Of these 105, 40 have 
already converted to a low-enriched core; 35 can convert with 
available fuels, and we are queuing those up to be completed on 
an accelerated basis; 30 cannot convert using existing 
technology, and that is why we have doubled the budget to 
develop this new variety of fuel to convert those last 
remaining reactors.
    To show the world that we are practicing what we preach, we 
are also working, as the chairman noted, to convert domestic 
reactors, and this year we have identified two reactors that we 
will convert, the University of Florida and Texas A&M. And we 
will be making a decision in the future about what additional 
U.S. reactors need to be converted. There are 14 remaining in 
the U.S; 8 can be converted; 6 require the new fuel that we are 
working on.
    Once we have converted the reactor, we want to return the 
spent fuel and fresh fuel and any bulk materials that might be 
used in targets or other activities at the site back to Russia 
and the United States, and we do that by bringing those 
materials back to a secure location. In Russia's case, we bring 
it back to a facility where we have already provided security 
upgrades.
    One of the most important things to keep in mind is that 
these reactors are in countries that are sovereign countries, 
and they must agree to convert the reactors. As Mr. Inslee 
pointed out, there is a diplomatic strategy that has to be 
carried out in order to convince the countries that the 
reactors can meet their missions, which are medical isotope 
production, industrial uses, research uses, very legitimate and 
very important missions. Our task is to convince them that they 
can convert and meet their missions, but to do so in a safe 
way.
    Last month, I chaired with my Russian counterpart Ivan 
Kamenskikh, a working group to set a schedule for the return of 
fresh and spent fuel from all remaining Russian origin sites. 
We have set our deadline as 2010 to have all of that material 
back into Russia. They are working on a regulation now that 
would make it legally possible for them to do so. There is no 
current regulation. They don't have the regulatory authority to 
repatriate that fuel.
    I will quickly go through this. The U.S.-origin fuel, we 
have extended the window during which U.S.-origin HEU fuel can 
be brought back into the United States. We extended that window 
by 10 years. We estimate that there are 40 countries with about 
20 metric tons of material that we need to bring back to the 
U.S.
    Moving on to RDDs, since September 11 we have focused with 
increasing emphasis on the threat that radiological sources 
pose. There are two components to our work. There is a domestic 
component and an international component. Domestically we have 
recovered roughly 10,500 excess sources. We work very closely 
with the NRC. They tell us when a licensee has orphan sources, 
and we mobilize our teams to go retrieve those sources and 
bring them to a secure location.
    Last year, Congress gave us an 18-month window and told us 
to get 5,000 sources. We got 5,500. So this program is to date 
very successful. We estimate that there are probably another 
15,000 additional sources that we will have to recover that 
will be declared excess that we will have to recover over the 
next 5 years domestically.
    Internationally we are currently engaged with about forty 
countries. We do so bilaterally with each the countries. We 
also work with the IAEA to form regional partnerships. We also 
work with other countries who have a regional role like 
Australia in the southern Pacific region, and we work with law 
enforcement such as Interpol.
    Since the program's inception, we have completed 
radiological security enhancements at 125 worldwide facilities 
and recovered 63 Russian civilian radioisotopes, thermal 
electric generators, or RTG.
    Thus far in 2005 alone, we have secured 56 sites in 
countries such as Belarus, Colombia, Indonesia, Kazakhstan, 
Russia and the Ukraine.
    There are at least an additional 16 high-risk countries 
with over 100 facilities that our International Radiological 
Threat Reduction Program will address over the coming years.
    With that, Mr. Chairman, I will conclude. I want to thank 
you for holding this hearing and we look forward to answering 
your questions.
    [The prepared statement of Paul Longsworth follows:]

Prepared Statement of Paul Longsworth, Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security Administration, 
                       U.S. Department of Energy

    Thank you for this opportunity to discuss the nonproliferation 
activities of the U.S. Department of Energy's National Nuclear Security 
Administration (NNSA). In the past, nuclear non-proliferation focused 
on preventing non-nuclear weapon states from acquiring such weapons. 
That's still important, of course. In the aftermath of 9/11, we have 
intensified our efforts to keep nuclear material and nuclear weapons 
out of the hands of terrorists. The NNSA has accelerated and expanded 
its implementation of a five-pronged strategy to deny terrorists and 
states of concern the materials, technology, and expertise needed to 
develop nuclear weapons.
    First, we want to account for and secure nuclear material in Russia 
and the former Soviet Union. We are making progress in improving 
security measures at facilities in Russia and the former Soviet Union. 
We have accelerated our programs to secure an estimated 600 metric tons 
of weapons-usable material in Russia. To date, we have secured over 75 
percent of the sites where these materials are stored and we are on 
course to finish this work by 2008--a full two years ahead of the 
schedule established prior to 2001. We will complete our work to secure 
Russian Navy warhead and nuclear fuel sites by 2006. We are moving 
rapidly to identify and secure all remaining 12th Main Directorate and 
Strategic Rocket Forces warhead sites. We expect to complete work on 
the Strategic Rocket Force sited by the end of 2007. Also, as discussed 
at the recent Bratislava Presidential Summit, we are exploring ways to 
accelerate our schedule in securing the 12th Main Directorate sites.
    Second, we want to establish a capability to detect the movement or 
trafficking of weapons usable nuclear materials. Through our programs 
like Second Line of Defense and Megaports, we are working with select 
countries to install radiation detection equipment at key transit choke 
points throughout the world--such as sea ports, airports, and land 
border crossings--to detect proliferation and trafficking of nuclear 
and radioactive materials. We currently operate more than 50 land 
border crossings and have already equipped two seaports, with 3 more 
expected this year.
    Third, we want to stop the production of new fissile material in 
Russia and eliminate existing stockpiles. Russia currently operates 
three plutonium producing reactors, which--together--make 1.2 MT of 
plutonium each year. That's enough for roughly a couple of warheads a 
week. The U.S. has agreed to build replacement, coal fired plants to 
make it possible for Russia to shut down these reactors. We are making 
progress in this area as well. In February, we began work at the first 
site, Seversk.
    We are also working to eliminate existing material. More than 231 
metric tons of Russia's HEU has been converted to non-weapons grade 
material for use in commercial power reactors under what is often 
called the ``Megatons to Megawatts'' program. Altogether, 500 metric 
tons of Russia's HEU will be converted and used as fuel in civilian 
nuclear power plants. The U.S has declared 174 metric tons excess at we 
are currently down-blending this material at U.S. facilities. 
Additionally, through our plutonium disposition program, we are working 
with the Russians to eliminate 68 metric tons of weapons-grade 
plutonium--34 metric tons in each country--enough for over 17,000 
nuclear weapons.
    Fourth, we want to eliminate or consolidate the remaining weapons-
useable nuclear and radiological materials that exist throughout the 
remainder of the world. This past May, DOE launched the Global Threat 
Reduction Initiative (GTRI) to identify, secure, recover and/or 
facilitate the disposition of vulnerable, high-risk nuclear and 
radioactive materials that pose a threat to the international 
community, as quickly and expeditiously as possible. GTRI works to 
achieve this mission by converting targeted research reactors around 
the world from the use of highly-enriched uranium (HEU) fuel to low 
enriched uranium (LEU) fuel, repatriating Russian- and U.S.-origin HEU 
fuel, securing and/or disposing of vulnerable, high-risk radiological 
materials that pose a threat to the United States, and identifying and 
addressing nuclear and radiological materials not previously addressed 
by existing nonproliferation efforts, the so-called ``gaps''.
    There is a good reason we are so concerned with the materials 
mentioned above--particularly HEU and plutonium. If terrorists were to 
get access to plutonium or HEU, they would have overcome a significant 
step in the pathway to a full weapon. The International Atomic Energy 
Agency estimates that about 25 kg of highly enriched uranium is enough 
to manufacture a nuclear explosive device. That's why civilian research 
reactors that possess HEU are a new and time-critical focus of GTRI.

                             PRIORITIZATION

    DOE prioritizes its work under GTRI by applying a risk-based 
approach to identify vulnerable nuclear and radiological materials that 
pose a threat to the United States and the international community. 
This risk-based approach is informed by several criteria, including, 
but not limited to the type and quantity of material, security 
conditions at the site, and location of material. However, 
participation under GTRI is voluntary in nature. Therefore, diplomatic 
breakthroughs or voluntary offers by countries may also impact GTRI's 
prioritization and schedule. This approach is applied to all sites, 
countries, and regions prior to GTRI taking action and committing 
resources.
    Because participation in GTRI programs is voluntary, NNSA's success 
in achieving the objectives of each individual program is contingent 
upon reaching diplomatic agreement with each individual country on the 
best path forward to address their high-risk nuclear material.
    To help ensure that GTRI was prioritizing its efforts in the most 
effective way, DOE undertook a comprehensive worldwide survey entitled 
``Global Materials Removal and Research Reactor Security Study'' 
(GMRRSS). This study, which drew from both classified and unclassified 
data, focused on research reactors and associated facilities given the 
large number of research reactors in the world that still operate with 
HEU. The study was coordinated with the U.S. interagency, including the 
Department of State and the National Security Council, and is intended 
to serve as a ``living document'' that will be updated as new 
information becomes available.
    Based on the results of the study and our risk-based approach to 
identify high-risk, vulnerable nuclear and radiological materials, GTRI 
is targeting several countries of highest concern. We will continue to 
work closely with the Department of State and the NSC to implement a 
coordinated DOE action plan.
    I would next like to go into a little more detail about our GTRI 
program elements--first, specifically focusing on our efforts to 
eliminate use of the several metric tons of HEU that exist at research 
reactors throughout the world.

           REDUCED ENRICHMENT FOR RESEARCH AND TEST REACTORS

    The Reduced Enrichment for Research and Test Reactors, or RERTR, 
program mission is to minimize and, to the extent possible, eliminate 
the use of HEU in civil nuclear applications by working to convert 
research reactors and radioisotope production processes to the use of 
LEU fuel and targets throughout the world. Specifically, GTRI is:

1. Developing advanced, high-density LEU fuels;
2. Providing assistance to research reactors for feasibility studies, 
        conversion analysis and licensing support;
3. Converting research reactors to the use of LEU fuel; and
4. Developing and demonstrating LEU-based radioisotope production 
        techniques.
    We are currently targeting 105 research reactor around the world 
for conversion to LEU fuel under the RERTR program. Of these 105 
reactors, 40 have already converted, 35 can convert with available LEU 
fuels, and 30 cannot convert with available LEU fuels. To address this, 
we are accelerating our work to develop higher-density LEU fuel in 
order to enable the conversion of these 30 reactors ``the FY05 RERTR 
budget is more than double that of the preceding year. We have also set 
an aggressive goal of 2014 to complete conversion of all 105 targeted 
research reactors to LEU fuel.
    Another important development under RERTR is that, beginning in 
FY05, GTRI is working to convert two domestic university research 
reactors to the use of LEU fuel--one at the University of Florida and 
the other at Texas A&M. Former Secretary Abraham pledged under GTRI to 
achieve the conversion of all U.S. domestic research reactors by 2013.

        RECOVERING AND REPATRIATING HIGHLY-ENRICHED NUCLEAR FUEL

    In addition to our reactor conversion efforts, we have two 
complementary programs that focus on the recovery and repatriation of 
research reactor nuclear fuel containing HEU. The Russian Research 
Reactor Fuel Return (RRRFR) program ensures that Russian-origin HEU 
fresh and spent fuel at foreign research reactors is returned to Russia 
and the Foreign Research Reactor Spent Nuclear Fuel Acceptance program 
ensures that U.S.-origin HEU spent fuel is returned to the United 
States. Both of these efforts work closely with our RERTR program to 
reduce and eventually eliminate the use of HEU in civilian nuclear 
research reactors and related facilities throughout the world.

        THE RUSSIAN RESEARCH REACTOR FUEL RETURN (RRRFR) PROGRAM

    The United States, the Russian Federation and the International 
Atomic Energy Agency (IAEA) have identified more than 20 research 
reactors in 17 countries that have Soviet-/Russian-supplied nuclear 
fuel that is eligible under the RRRFR program. The Uzbekistan fresh HEU 
fuel shipment featured in a February CBS ``60 Minutes II'' piece is a 
perfect example of the tangible results being achieved in this program.
    Those countries that wish to participate in the RRRFR program must 
agree either to shut down their research reactors or to convert them 
from the use of HEU to LEU fuel as soon as suitable LEU fuel can be 
licensed and made available. Under an aggressive schedule established 
by the former Secretary of Energy, we are accelerating repatriation of 
both fresh and spent HEU fuel under the RRRFR program. For instance, 
based on Secretarial commitments, we hope to complete the repatriation 
of all Russian-origin spent HEU fuel by the end of 2010. This schedule 
represents a significant acceleration of the original timelines--a full 
three years ahead of the original schedule.
    Just this past April, I co-chaired the first ``Joint Coordinating 
Committee Meeting on Russian Research Reactor Fuel Return'' meeting 
with my Russian counterpart, Ivan Kamenskikh. We agreed to an action/
prioritization plan for Russian fuel return that should help us meet 
our aggressive schedule.
    To date, we have repatriated a total of 105 kilograms of fresh HEU, 
enough for four bombs according to the unclassified IAEA estimate. 
Russian-origin HEU has been repatriated to Russia from: Serbia in 
August 2002 (48 kilograms); Romania in September 2003 (14 kilograms); 
Bulgaria in December 2003 (17 kilograms); Libya in March 2004 (17 
kilograms); Uzbekistan in September 2004 (3 kilograms); and most 
recently, the Czech Republic in December 2004 (6 kilograms). Numerous 
other shipments are being planned, including a shipment this week of 
fresh HEU and our first shipment of spent HEU nuclear fuel from 
Uzbekistan.
    Overall, by 2010 we expect to repatriate 1,370 kilograms of Russian 
HEU, thereby securing it from possible diversion for malevolent 
purposes.

 THE FOREIGN RESEARCH REACTOR SPENT NUCLEAR FUEL (FRR SNF) ACCEPTANCE 
                                PROGRAM

    Under the FRR SNF Acceptance Program, U.S.-origin fuel from 
research reactors in over 40 countries is eligible to be returned to 
the United States. About 20 metric tons of material is eligible for 
return under the current FRR SNF Acceptance Program. To date, a total 
of 6,445 fuel assemblies have been returned to the United States under 
this voluntary program, thereby reducing civil use of HEU by almost 500 
kilograms. Over the last year and a half, we have repatriated to the 
United States 418 SNF assemblies from Japan, 293 SNF assemblies from 
Indonesia, and 126 SNF assemblies from Germany.
    This past November, the Secretary of Energy extended the deadline 
for participation in the FRR SNF Acceptance Program by ten (10) years. 
Prior to this extension, a number of countries did not participate in 
this program because of concerns surrounding the potential economic, 
financial, or scientific impact of returning the spent fuel. This 
extension will prevent disruptions of important research reactor 
operations, and permit continued fuel acceptance until suitable 
replacement LEU fuels are qualified and available.
    By 2019, the FRR SNF Acceptance Program expects to return or 
validate acceptable disposition of 22,743 U.S.-origin spent fuel 
assemblies from foreign research reactors.

                     RADIOLOGICAL THREAT REDUCTION

    In addition to addressing the problem of terrorist acquisition of 
nuclear weapons, GTRI encompasses two programs that reduce the ability 
of terrorists to obtain material for a Radioactive Dispersal Device 
(RDD) or ``dirty bomb.'' An RDD disperses radioactivity using 
conventional explosives or other means and the RDD threat has only been 
taken seriously since the advent the Global War on Terrorism. The two 
components of this work in GTRI include a domestic program to recover 
excess and unwanted radiological sources that are most vulnerable to 
diversion or theft and an international program to assist foreign 
countries in securing their vulnerable, high-risk radiological sources.
    Our radiological threat reduction programs address ten radioactive 
isotopes that pose a threat for use in an RDD. These isotopes are 
americium-241, californium-252, cesium-137, cobalt-60, curium-244, 
iridium-192, plutonium-238, plutonium-239, radium-226, and strontium-
90.

                   U.S. RADIOLOGICAL THREAT REDUCTION

    The U.S. Radiological Threat Reduction Program has the mission of 
recovering vulnerable radiological materials in the United States that 
could be used in a RDD. Originally, the DOE Office of Environmental 
Management managed this program, which in 1993 began to recover certain 
radioactive materials that had no commercial disposition path. But, the 
recovery program was oriented towards environmental, health and safety 
concerns. In response to the threat of radiological terrorism, this 
program was transferred into NNSA, and priority was give to 
radiological materials that would be most dangerous if used by a 
terrorist. The program successfully recovered over 5,500 sealed sources 
in an 18-month period between October 2002 and March 2004, as mandated 
by Congress. To date, over 10,500 excess domestic sealed sources have 
been recovered and securely stored or disposed. This includes several 
notable accomplishments:

1. We removed 68 high-risk sources from 55 sites in Boston and New York 
        prior to the national conventions;
2. Most recently, we recovered approximately 1000 curies of cesium-137 
        from 5 high schools.
    We estimate that there will be more than an additional 15,000 
sealed sources declared excess that meet our threshold criteria and 
would be available for our program to address over the next 5 years.

              INTERNATIONAL RADIOLOGICAL THREAT REDUCTION

    The International Radiological Threat Reduction (IRTR) Program 
identifies, secures, and/or facilitates the disposal of vulnerable, 
high-risk radiological materials located around the world to reduce the 
threat of a radiological attack against the United States or its 
interests. IRTR is currently engaged in over 40 countries.
    Bilateral cooperation under IRTR is buttressed by cooperation with 
the International Atomic Energy Agency, regional partners such as 
Australia, and with Interpol. The IRTR has been a primary source of 
assistance to the IAEA's new Office of Nuclear Security and had 
considerable involvement in working with Greece to protect against 
radiological terrorism during the Olympics. This program also had a 
major role in the recovery of a very large quantity of radiological 
material from Iraq. Since the program's inception, we have completed 
radiological security enhancements at 125 facilities worldwide and have 
recovered 63 Russian civilian Radioisotope Thermoelectric Generators 
(RTGs). Thus far, in FY05 alone, we have secured 56 sites in countries 
such as Belarus, Colombia, Indonesia, Kazakhstan, Russian, and Ukraine.
    There are at least 16 additional high-risk countries with over 100 
facilities that IRTR will address over the next few years.

                             PATHS FORWARD

    Under GTRI, we have aggressive plans in all of these areas. In 
FY05, GTRI plans to:

1. Convert five research/test reactors around the world from HEU to LEU 
        fuel, in countries such as the Czech Republic.
2. Repatriate to Russia 76 kilograms of fresh and/or spent HEU fuel 
        from Soviet-Russian-supplied research reactors including fresh 
        HEU from Latvia, the Czech Republic, and Libya.
3. Return 359 fuel assemblies containing U.S.-origin spent fuel from 
        foreign research reactors in countries such as the Netherlands 
        and Sweden.
4. Recover 1,500 U.S. excess sealed sources in the United States in 
        FY05.
5. Secure 105 high-priority international sites with vulnerable 
        radiological material at high-risk sites in countries such as 
        Colombia, Ukraine, Jordan, Nicaragua, Belarus, Kazakhstan, and 
        Yemen.
    In FY 2006, GTRI plans to:

1. Convert four research/test reactors around the world from HEU to LEU 
        fuel.
2. Repatriate to Russia 130 kg of fresh and/or spent fuel from Soviet-
        Russian-supplied research reactors.
3. Return 472 assemblies containing U.S.-origin spent fuel from foreign 
        research reactors.
4. Recover 2,250 U.S. excess sealed sources in the United States.
5. Secure 125 high-priority international sites with vulnerable 
        radiological materials.
    The specific details of our strategies and future plans in the 
remainder of FY05 and in FY06 identify specific locations that may have 
vulnerabilities; we and our international colleagues consider this 
information sensitive. We would be happy to provide more specific 
details in closed testimony.

                               CONCLUSION

    I would like to thank you for this opportunity to discuss DOE's 
Global Threat Reduction Initiative with you.

    Mr. Whitfield. Thank you Mr. Longsworth.
    Commissioner McGaffigan, you are recognized for 5 minutes.

               STATEMENT OF EDWARD McGAFFIGAN, JR.

    Mr. McGaffigan. Thank you, Mr. Chairman.
    Mr. Chairman, Congressman Inslee, it is a pleasure to be 
here this afternoon on behalf of the Nuclear Regulatory 
Commission to discuss our aggressive and comprehensive efforts 
to enhance the security of high-risk radioactive sources and 
research and test reactors. We believe that significant 
achievements have been made by our agency in this area over the 
past 3.5 years.
    Since September 11, the NRC has thoroughly reevaluated its 
safeguards and security programs across the board, and to date 
we have issued over 16 different categories of orders and 
confirmatory action letters covering hundreds of licensees and 
actions involving the radioactive materials of greatest 
concern. The overall approach is risk-informed and focuses on 
radioactive materials of greatest concern.
    We did that prioritization that Mr. Inslee talked about 
back in 2002, and we have been following a program that we 
think is the right program now for several years.
    Let me enumerate a few of our successes. The Commission, in 
coordination with our DOE colleagues and other agencies, has 
taken the following actions:
    NRC, in cooperation with the Agreement States, issued 
advisories to licensees who possess high-risk material on March 
17th, 2003, consistent with the launch of Operation Liberty 
Shield. Those advisories went out to over 2,000 entities.
    NRC and DOE in consultation with other Federal agencies, 
issued the DOE/NRC Working Group Report in May 2003 on 
radiological dispersal devices and radiological exposure 
devices. That report defined threshold quantities of 
radioactive materials which are of highest risk and have the 
greatest potential for malevolent use.
    During 2002 and 2003, the Commission worked with the 
Departments of Energy and State and the international community 
to reach agreement on which radioactive sources are of the 
greatest concern. Those sources are set forth in the 
International Atomic Energy Agency Code of Conduct on the 
Safety and Security of Radioactive Sources. The Code was 
adopted in December 2003 and has received very high-level 
endorsement by the G-8 heads of state at the Sea Island summit 
last year.
    The NRC, in coordination with the Departments of Energy, 
State, and Homeland Security, has approved a final rule 
amending our export and import regulations to impose more 
stringent controls over the Code materials. The U.S. is the 
first country to implement the export-import provisions of the 
Code of Conduct guidance documents.
    The NRC, in cooperation with DOE and other Federal 
agencies, is developing a national source tracking system, as 
the chairman mentioned, to track radioactive materials of 
greatest concern specified in the Code.
    The NRC has developed and is maintaining an interim data 
base of these radioactive sources for both NRC and the 33 
Agreement States and their licensees.
    The NRC has required security enhancements for various 
classes of NRC and agreement State materials licensees, 
including fuel cycle facilities, like Paducah, large 
irradiators, and manufacturers and distributors of radioactive 
materials, and we are working on additional orders.
    The NRC has issued security orders governing the 
transportation of spent nuclear fuel, and the NRC, as mentioned 
by Mr. Longsworth, has assisted DOE to accelerate the 
collection of unwanted radioactive sources through DOE's 
offsite source recovery program.
    Turning to research and test reactors, the NRC has required 
security plans and procedures at research reactors since the 
1970's.
    Following 9/11, the NRC promptly advised research and test 
reactor licensees to heighten and enhance security in 
accordance with preestablished notices to protect against 
radiological sabotage and theft of nuclear material. 
Subsequently, as we proceeded with our security review, NRC 
required research and test reactor licensees to take additional 
security measures, the details of which are inappropriate for 
an open hearing.
    The NRC has verified implementation of these measures to 
protect research and test reactor facilities.
    The NRC has worked with DOE to convert, as Paul mentioned, 
research reactors to low enriched uranium fuel which is a less 
attractive target for terrorists.
    The Commission welcomes DOE's initiatives to convert the 
University of Florida and Texas A&M reactors to low enriched 
fuel and its plans to convert other research reactors for which 
suitable low enriched fuel has been developed.
    The Commission also welcomes the House Appropriations 
Committee action to add an additional $20 million in fiscal 
year 2006 for the Reduced Enrichment for Research and Test 
Reactors program to accelerate the conversion of domestic 
reactor fuel from highly enriched to low enriched.
    In summary, Mr. Chairman, I can assure you that the 
Commission and Commissioners themselves, all of us on a 
bipartisan basis, will continue to be very active in ensuring 
the development and implementation of enhanced controls on 
radioactive sources that could be used in an RDD or RED.
    I also want to take this opportunity to thank the committee 
for their support of section 662 of the energy bill which will 
allow us to require fingerprinting for a broader set of 
licensees than we do today and including the ones we are 
discussing today and do much more thorough background checks.
    Again, I appreciate the opportunity to appear before you 
today on behalf of the Commission and look forward to your 
questions.
    [The prepared statement of Edward McGaffigan, Jr. follows:]

  Prepared Statement of Edward McGaffigan, Jr., Commissioner, Nuclear 
                         Regulatory Commission

    Mr. Chairman and members of the Subcommittee, it is a pleasure to 
appear before you today on behalf of the Nuclear Regulatory Commission 
(NRC) to discuss our efforts to enhance the security of high-risk 
radioactive sources and research and test reactors. The NRC takes very 
seriously its responsibility to ensure the adequate protection of the 
public health and safety. Mr. Chairman, we believe that significant 
achievements have been made by our agency in the area of security. Let 
me enumerate a few of these achievements.
    Since September 11, 2001, the NRC has thoroughly reevaluated its 
safeguards and security programs and, to date, has issued over 16 
different categories of Orders and Confirmatory Action Letters covering 
hundreds of licensees and actions involving radioactive materials of 
greatest concern. The NRC continues to devote considerable effort to 
determining what additional actions could be used to enhance the 
security of these materials in use, in storage, or in transport. The 
emphasis of this effort is on preventing the use of radioactive 
materials that have the potential to pose a risk to public health and 
safety if used in a radiological dispersal device or a radiological 
exposure device (RDD/RED). The objective of NRC's programs to control 
these radioactive materials is to ensure the protection of the public 
and the environment and to promote the Nation's common defense and 
security. The overall approach is risk-informed and focuses on 
radioactive materials of greatest concern.

             MEASURES TAKEN TO ENHANCE SECURITY OF SOURCES

    There are millions of radioactive sources in the United States and 
although these sources are in the possession of a large number of 
organizations, only a small fraction of those sources would present a 
credible terrorist target and are therefore considered radioactive 
materials of greatest concern. This is because most licensees use 
radioactive material that is in very small quantities; has a short 
half-life; is relatively inaccessible; is in a form which cannot be 
readily dispersed; or has a combination of these attributes. We have 
applied a graded approach to security that is generally consistent with 
the potential radiation risk from these materials.
    Mr. Chairman, the Commission in coordination with our Department of 
Energy colleagues, has taken the following actions to improve the 
security of high-risk sources:

 NRC, in cooperation with the Agreement States, issued advisories to 
        licensees to enhance security measures on March 17, 2003, 
        consistent with the launch of Operation LIBERTY SHIELD.
 NRC and DOE, in consultation with other Federal agencies, issued the 
        DOE/NRC Interagency Working Group Report on RDD/REDs in May, 
        2003. This report defined threshold quantities for radioactive 
        materials which are the highest risk and have a potential for 
        malevolent use.
 During 2002-2003, the NRC Commission worked with the Departments of 
        Energy and State and the international community to reach 
        agreement on which radioactive materials and sources are of the 
        greatest concern. Those sources are set forth in the 
        International Atomic Energy Agency (IAEA) Code of Conduct on 
        the Safety and Security of Radioactive Sources. The Code of 
        Conduct was approved by Member States at the IAEA General 
        Conference in September 2003. The U.S. Government committed to 
        implement the Code of Conduct in late 2003, and it was then 
        endorsed by the G-8 at the Sea Island summit in 2004. The 
        threshold values in the Code of conduct are in substantial 
        agreement with the values contained in the DOE-NRC RDD report.
 The NRC, in coordination with the Departments of State, Energy, and 
        Homeland Security, has approved a final rule amending its 
        export and import regulations to impose more stringent controls 
        over the Category I and Category II materials defined by the 
        IAEA Code of Conduct with the exception of radium-226 (Ra-226), 
        a naturally occurring radionuclide which the NRC does not 
        currently have the authority to regulate under the Atomic 
        Energy Act. This rulemaking implements a key element of the 
        Code of Conduct and its guidance documents by increasing 
        licensing requirements, as well as notice and consent 
        requirements. The United States is the first country to 
        implement the export-import provisions in the Code of Conduct 
        guidance documents.
 The NRC, in cooperation with DOE and other Federal agencies, is 
        developing a National Source Tracking System to track 
        radioactive materials of greatest concern specified in the IAEA 
        Code of Conduct on a permanent basis. The NRC is working 
        closely with the Department of Energy, the Agreement States, 
        the Department of Homeland Security, the Environmental 
        Protection Agency, the Department of Transportation, the 
        Department of State, the Department of Commerce, the Department 
        of Defense and the Federal Bureau of Investigation to ensure 
        that the system addresses needed functions and minimizes 
        unnecessary duplication. NRC will involve the public through 
        our rulemaking process.
 The NRC has developed and is maintaining an interim database of 
        Category I and II radioactive sources for both NRC and 
        Agreement State licensees. This database will be maintained 
        until the National Source Tracking System is complete.
 The NRC has required security enhancements for various classes of NRC 
        and Agreement State materials licensees, including independent 
        spent fuel storage installations, fuel cycle facilities, large 
        irradiators, and manufacturers and distributors of radioactive 
        material. Orders for NRC and Agreement State materials 
        licensees in the medical academic and industrial fields (e.g., 
        blood irradiators, gamma knives, radiographers, well loggers, 
        etc.) are currently in final stages of development.
 The NRC has issued security Orders governing the transportation of 
        spent nuclear fuel, and Orders governing the transportation of 
        other radioactive materials in quantities of concern are also 
        currently in the final stages of development.
 The NRC has implemented the Homeland Security Advisory System for NRC 
        and Agreement State licensees.
 NRC has assisted the DOE, where possible, to accelerate the 
        collection of unwanted radioactive sources through the DOE's 
        Offsite Source Recovery Program. Since its inception in 1997, 
        the DOE program has recovered over 10,000 sources from 
        approximately 400 locations in the United States and the DOE 
        has consistently been very responsive to NRC requests for 
        assistance.

            RESEARCH AND TEST REACTORS--SECURITY/CONVERSIONS

    The NRC has required security plans and procedures at research 
reactors since the late 1970s in accordance with our regulations. The 
security programs and systems are required to provide early detection, 
and assessment of and response to unauthorized access or activities. 
These security programs also include control of access to facilities, 
emergency response personnel (e.g., University Police, Local Law 
Enforcement Agency, or contract security forces), alarms, other devices 
and procedures to detect unauthorized activities. Response forces are 
required to respond to all indications of unauthorized penetrations or 
activities.
    Following September 11, 2001, the NRC promptly advised research and 
test reactor licensees to heighten and enhance security in accordance 
with preestablished notices to protect against radiological sabotage 
and theft of nuclear material. Subsequently, as it proceeded with its 
security review, NRC required research and test reactor licensees to 
take additional security measures. These additional security measures 
were focused on protecting against land-based assaults and insider 
attacks. More specifically, these additional security measures include, 
but are not limited to, enhancements to access authorization and 
controls, communication systems, and vehicle and package searches. The 
additional security measures also include heightened coordination with 
appropriate local, State, and federal resources.
    The NRC has verified the implementation of these measures to 
protect research and test reactor facilities. Further, NRC maintains 
regular communications with other Federal agencies (including the 
Departments of Energy and Homeland Security, the Federal Bureau of 
Investigation, the Central Intelligence Agency and the National 
Counter-Terrorism Center) to continue assessing potential threats to 
all classes of licensees including research and test reactors. We have 
conducted consequence assessments of these reactors and have concluded 
that there is a low risk to public health and safety from potential 
threats.
    The NRC has worked with DOE to convert research reactors to low 
enriched uranium fuel which is a less attractive target for terrorists. 
The Commission welcomes DOE's initiatives to convert the University of 
Florida and Texas A&M reactors to low-enriched fuel, and its plans to 
convert other research reactors for which suitable low-enriched fuel 
has been developed. The NRC, DOE and research and test reactor 
licensees also have been cooperating on efforts to identify irradiated 
fuel which is no longer needed and ship it to a DOE facility. This 
cooperation is based on NRC and DOE initiatives recognizing that 
keeping unneeded fuel onsite is an unnecessary risk under the current 
threat environment. Considerable progress in this regard has been made. 
The Commission welcomes the additional $20 million the House 
Appropriations Committee approved for FY 2006 for the Reduced 
Enrichment for Research and Test Reactors (RERTR) program to accelerate 
the conversion of domestic research reactor fuel from highly enriched 
uranium to low enriched uranium.
    The NRC has recently taken the initiative to identify various 
unwanted radioactive materials, such as fission chambers, fission 
foils, fission plates, and various government-owned materials at NRC 
licensed research reactors and has informally requested DOE to assist 
with their removal.
    In summary, Mr. Chairman, I can assure you that the Commission is 
and will continue to be very active in ensuring the development and 
implementation of enhanced controls of radioactive sources that could 
be used in an RDD/RED. I also want to take this opportunity to thank 
the Committee for their support of Section 662 in the Energy Bill 
(H.R.6) which will allow us to require fingerprinting for employees at 
the facilities we have been discussing today. Again, I appreciate the 
opportunity to appear before you today on behalf of the Commission and 
stand ready to answer any questions you or the other members of the 
Subcommittee may pose.

    Mr. Whitfield. Thank you, Commissioner.
    We appreciate the testimony of both of you, and each member 
will have 10 minutes for questions if we want to use that time.
    Mr. Longsworth, let me first ask you, how much money was 
appropriated for the GTRI program for 2005?
    Mr. Longsworth. It was about $93 million.
    Mr. Whitfield. What was it prior to that?
    Mr. Longsworth. It was $69, $70 million, roughly. So it was 
a fairly significant increase.
    Mr. Whitfield. So do you feel like you have sufficient 
funds to--I know you always need more, but do you feel that you 
have sufficient funds to be effective in what you are doing?
    Mr. Longsworth. Well, we have set very aggressive goals in 
terms of the number of reactors we want to convert and the 
schedule by which we want to do that. We are fully funded to 
meet our mission requirements today. If we were given a broader 
mission to convert U.S. reactors, which we have only identified 
two currently, we are not funded for that, but we are fully 
funded to--over our 5-year budget plan to meet requirements 
that we have--we have been given.
    I will add, the radiological source recovery is what I 
refer to as a dialable program. You can spend more and get more 
work. We think that our program currently is a credible program 
and it's adequate to meet the risk, but that is a program you 
can--if you add more money, we will just recover more sources. 
If you take away money, we will recover fewer.
    Mr. Whitfield. In November 2004, the GAO issued a report on 
the GTRI program, and they specifically said that DOE had not 
reached agreement with 11 of 23 countries that still have U.S.-
origin highly enriched uranium to return to the U.S. Now, this 
report is about 6 months old. Can you give us an update on your 
progress to reach agreement with those 11 countries?
    Mr. Longsworth. Yes. As I said earlier, even though the 
reactors in question and the fuel were--really have their 
origins in Eisenhower's Atoms for Peace Initiative. So we gave 
countries access to our reactor technologies and have supplied 
them fuel over the years, but they are sovereign countries who 
either have to agree to convert their reactors.
    We are working with most of those countries. I will note 
that some of them are countries that we are not as concerned 
with such--like France and Britain, that we don't think pose 
the same kind of threat that, say, other reactors might in 
other parts of the world. We are working with all of the 
countries on that list to get all of that work done by 2014.
    Mr. Whitfield. I might add that we will go into executive 
session when this is over to get it into a little bit more 
classified material, and so I appreciate your comment on that.
    In reading some of the testimony of some of the witnesses 
on Panel II--I don't remember which one, and maybe it was both 
of them--but they made the point that instead of Russia and the 
U.S. being so focused on returning highly enriched uranium to 
the U.S. and to Russia, that we might be better off finding a 
safe storage place, wherever it may be, and that they would 
recommend that. What are your comments about that?
    Mr. Longsworth. Well, one thing I did not mention and I am 
remiss in not mentioning is while we are discussing the 
conversion of the reactor and the return of the material 
itself, we also have efforts to secure these locations where 
the material is stored. So we do go in in almost every case and 
provide security upgrades at the site where this material is 
located, if it's HEU and it is one of our targeted reactors.
    We don't provide security for LEU, low enriched, reactors, 
so we do do that where we can. Obviously there is a 5-megawatt 
U.S.-origin reactor in Tehran. We have not provided security or 
any work there, but the countries where we can work, we do.
    Mr. Whitfield. All right. Now GTRI has developed criteria 
for identifying and recovering specific high-risk radioactive 
sources based on the potential for the source to be used in a 
dirty bomb, and it is my understanding that NRC uses a 
different method that was developed by theInternational Atomic 
Energy Agency for identifying high-risk sources. So there seems 
to be a little bit of inconsistency between the two agencies, 
and I know that the administrator, Linton Brooks, wrote a 
letter to Chairman Diaz in February 2005 touching on this 
issue. Would the two of you respond to this different approach 
that you have?
    Mr. McGaffigan. Mr. Chairman, the approach that we arrived 
at in 2003 in the international process was derived from the 
joint DOE-NRC working group report. We negotiated that with our 
international partners through the International Atomic Energy 
Agency. We got to within a factor of 3 on every radionuclide 
that is of concern. The factor of 3 is the threshold level, and 
frankly the modeling errors are on the order of a factor of 10.
    So we use the IAEA Code of Conduct because the purpose of 
the Code is to put in place mutually reinforcing export-import 
regimes so that the national cradle-to-grave controls for these 
high-risk sources reinforce each other. That is the goal, and I 
believe over 50 nations have committed. We are well in front of 
any other nation in terms of meeting our commitment to the 
Code, but our colleagues at DOE--I will let Paul speak for 
himself--in some cases we use the term ``high risk'' a little--
high risk in source recovery isn't the same as the IAEA Code, 
and his international programs for resource reasons isn't the 
same, but it--so the words for us, when I say high risk code, I 
mean Category 1 and 2 codes covered by the Code of Conduct to 
which about 60 nations have committed.
    Mr. Longsworth. Our mission is not to focus on safety or 
environmental issues. We only focus on removing threats. What 
we have tried to do with our standard, which we think is 
consistent with the Code of Conduct, is not--it would be, I 
think, erroneous to say that we are inconsistent, but we have 
tried to set up a range of curie levels that set a floor for 
action on our part. What that means is we can actually address 
sources down to that level, if needed, and if they need other 
risk criteria.
    So our standard is a--it is apples and oranges compared to 
what I think the NRC works with on the Code of Conduct, but 
they are not inconsistent. We are just trying to do another 
mission. So we have set a floor. The floor is actually a range 
of values, and we can take action if we find a source in 
Kazakhstan, for example. That floor sets the boundary below 
which we cannot secure the source. So we have tried to set a 
floor. We don't get every source that meets down to that level, 
but we use it as a guide, and we also look at other factors in 
that country. We look at risk factors. We look at terrorist 
activities, the enforcement of regulations in that country. So 
we have a broad, flexible program because we do have limited 
resources and we want to address the highest-risk sources 
first.
    Mr. Whitfield. To explore this just a little bit further, 
in his letter that Mr. Brooks wrote to Chairman Diaz, he 
specifically said that it is timely to further develop the 
unified U.S. position on the security of high potential 
consequence radioactive sources and to present this position to 
the international community that is also in need of unifying 
guidance and clarification. Would you agree with that 
statement?
    Mr. Longsworth. Yes, sir. I worked for Ambassador Brooks. I 
agree with him.This is the Code of Conduct as we were 
discussing it, but this Code is--it explicitly does not address 
malevolent uses of sources. So it is explicit that it does not 
address, for example, terrorist uses of radiological sources, 
and that is what we are all about. That is our only mission is 
addressing that. So we are--what we are trying to do is to try 
to get the international community to focus on the issue of 
malevolent uses of sources. I think that is----
    Mr. McGaffigan. Mr. Chairman, I think there might be a 
slight disagreement here in that we believe--and Commissioners 
were involved in the negotiation of the revised Code of Conduct 
in 2003. Chairman Diaz himself made a key breakthrough in 
identifying the materials of concern, a key diplomatic 
breakthrough, but we did follow the DOE-NRC working group 
report within a factor of 3 on every radionuclide.
    It is, I believe, the position not just of the Commission, 
but also the Department of State, that we do not need to 
renegotiate it at this time. We need to focus on getting the 69 
nations that have committed to it to implement it, and that 
doesn't mean--in many cases, Mr. Longsworth and Mr. Brooks have 
less resources. So if the Code says that three hundred curies 
of strontium 90 is the Category 2 level above which we control, 
I think DOE has chosen 1,000 curies, that is a reasonable 
judgment based on the resources that they have.
    It's better--occasionally DOE goes below the Code, and that 
causes us some concern because it gives a mixed message to 
other nations.
    And furthermore, the security--security is built into the 
Code. The reason we had it, it used to be the Code of Conduct 
on the Safety of Radioactive Sources, it became in 2003 the 
Code of Conduct on the Safety and Security, and we did take 
into account RDD and RED exposures in setting our threshold 
limits with the international community.
    Mr. Whitfield. Thank you for that comment. Since I have 
been reading from this letter, and it is my understanding that 
you all did see it, I would ask unanimous consent that we 
introduce it into the record.
    At this point I would recognize Mr. Inslee for his question 
period.
    Mr. Inslee. Thank you. If the U.S. reconsiders its 
reprocessing position, and there is some talk about that in 
this bill we have on the floor today, would that affect your 
efforts in any way, in regard to your relationship with these 
other countries that we are inspiring to responsible activity?
    Mr. Longsworth. Well, there is reprocessing going on today, 
as you know, in France and in other countries and in Russia, 
and those facilities are safeguarded, and we think they are 
secure. There has been no allegation of diversion or any other 
activities at those facilities that would cause harm.
    I think what the U.S. is looking at from a policy 
standpoint is looking to the future for what types of 
reprocessing or recycling we can pursue for the future. We are 
investing funding in my program and in the nuclear energy 
program to look at that question. That really is the question 
is for the future: What type of recycling do you need for 
nuclear material? Werecycle everything else. There isn't any 
reason why we can't recycle nuclear material.
    There are ways technologically to recycle nuclear material 
that don't pose a proliferation threat. For example, you can 
reprocess plutonium out of spent fuel but keep that plutonium 
mixed with the actinides, the very highly radioactive 
actinides. That material actually has a very high energy 
content, and it can be used in FAC reactors. And the U.S. and 
other countries, I don't think we have adequately explored that 
concept. So there are ways that you can recycle nuclear 
material that actually don't pose a significant proliferation 
threat. That is probably where we are taking our resources and 
looking to the future.
    Mr. Inslee. Could either one of you describe in general 
terms--we will have another session in closed session--what you 
consider your major challenges right now?
    Mr. Longsworth. Well, my challenges are primarily 
diplomatic. We think we have--I will speak just to GTRI. We 
have many other challenges in the other parts of our 
nonproliferation program, but for just GTRI they are primarily 
diplomatic. And it is no fault of anyone's, not the fault of 
State Department or ours or these other governments, but 
working with sovereign governments that perhaps don't have good 
relations with the U.S. or want to distance themselves from the 
U.S., that has been one of our largest challenges.
    In addition to that, where the countries perhaps don't want 
to work with us, there are other countries that view our desire 
to convert their facilities or down-blend their weapons-usable 
material, they think we should pay a price for that. We view it 
as just good stewardship. We believe it is a responsible step 
for countries to take, but we find that we actually have to 
provide incentives in many cases for countries to convert, and 
that drives up our costs and it slows down our progress.
    So our problems for the most part have been diplomatic in 
nature, engaging countries and convincing them to convert their 
facilities and to remove materials that could be used in 
weapons programs.
    Mr. McGaffigan. Sir, I think our challenges pale in 
comparison with the Department of Energy's. We are--the 
National Source Tracking System is a very large undertaking for 
us. It's going to cost, for a relatively small agency, $10 to 
$20 million over the next 5 years to get fully in place and 
implemented. We have an aggressive schedule on the information 
technology support that we need to meet that goal. This is 
going to be a secure data base. We are fully going to comply 
with FISMA from the get-go so we don't build it in later. But 
it is a very aggressive schedule to get the National Tracking 
System in place.
    We also have to continue to work to complete our program of 
borders for additional categories of licensees. That is not a 
resource issue, really, but we do work with the 33 Agreement 
States, including Kentucky and Washington, to not catch them by 
surprise. We do have some dual regulation here because we are 
doing a lot of this stuff under our common defense and security 
authority which we cannot delegate to the States.
    The National Source Tracking System is an example of that. 
We have to have a uniform national system, and we are doing it 
primarily for common defense and security reasons.
    So those are the ones that come to mind. The resources, the 
House Appropriations Committee has given us an additional $4 
million next year to work on material security matters that was 
beyond our request, and we appreciate that, and we need that in 
order to continue to pursue the program that we want to pursue 
as aggressively as we want to pursue it.
    Mr. Inslee. Could you give us an assessment of what 
confidence level we have about our knowledge, data base, of 
existing threat material, material that poses some threat? I 
mean, if you said with 90 percent confidence we know about X 
percent that is there, is there any way to sort of quantify 
that, put any parameters on that?
    Mr. McGaffigan. I will say domestically with regard to the 
Code of Conduct-controlled material, we have an interim data 
base with a very high response rate, over 99 percent, from 
Agreement States and NRC licensees, and we have Oak Ridge 
updating it. It's really not a data base. We eventually want to 
have 1-day transactions. If a source is transferred from here 
to here, we want 1-day notice of both ends of the transaction. 
That is what the National Source Tracking System will do.
    The interim data base is an annual update. We had it in 
place really by March 17, 2003, not with all the bells and 
whistles, but enough to send advisories out saying that 
hostilities are about to start, improve your security posture.
    So we update it quarterly. Oak Ridge is our contractor for 
this effort and we are very proud of it. We are not aware of 
any other regulator in the world that has an interim data base 
of IAEA Code of Conduct sources. Is it perfect? No. Do we have 
the research and test reactors in there at the current time? 
No.
    We have over--there are 1,300 entities in this country that 
have--approximately, that possess Category I or II high-risk 
sources. In the Washington area, it tends to be hospitals, 
George Washington, Washington Hospital Center, Georgetown, et 
cetera, because they have cesium blood irradiators. They have 
other sources that are used in the care of patients. In fact, 
there isn't inside the Beltway--at USDA outside the Beltway 
there is a fair number of high-risk sources used in 
agricultural research. Inside the Beltway, I believe all the 
entities that have high-risk sources are hospitals.
    Mr. Longsworth. In our work, we know where reactors are 
located and we know which ones are using highly enriched 
uranium. So where there is a physical footprint we know. There 
is a critical assembly associated with that reactor. We know 
where that is.
    What we often don't know is in some cases these reactors 
operate on varying power levels. They may have different burn-
up rates. So can we say for sure exactly how many kilograms of 
fuel remain at this site? Those are calculations that we have 
to do.
    In classified session I think I can tell you a little bit 
more about what we track using other sources for programs that 
might have military uses or other uses, but we do keep track of 
those.
    For radiological sources, internationally, that is harder 
because those sources tend to disappear in countries where 
there is not a vigorous regulatory body or licensing 
requirements and accountability requirements. But we are 
working with the former Soviet Union and Russia particularly to 
begin to identify and track down those sources. That is one of 
the primary missions we have right now is working at the 
request of the Russian Federation to go find their sources that 
they gave out during their equivalent of Atoms for Peace, to 
repatriate those, secure them and dispose of them. So that is a 
very active area for us right now; and again, it was at the 
request of the Russian Federation that we began to accelerate 
that work.
    Mr. McGaffigan. Mr. Chairman, I might just add in response 
to something that Mr. Inslee asked at the outset, domestically, 
we coordinate very closely with the Department of Homeland 
Security as well as the Department of Energy. In fact, there is 
a government coordinating council for the nuclear sector. The 
fundamental document is the National Infrastructure Protection 
Plan. We work hand-in-glove with DHS as they prepare the 
sector-specific--nuclear sector coordinating plan. And there 
also are nuclear sector coordinating councils that bring the 
private sector in. One for reactors, one for--it's being formed 
for research reactors, and one for radioisotopes, and those are 
DHS entities. But under the law of the Atomic Energy Act, we 
are the primary regulator for safety and security within this 
country.
    Mr. Inslee. Quick question. Maybe it's not too quick. Ms. 
Rohlfing is going to testify. I read some of her testimony. She 
said that given the threat, there is no comprehensive baseline 
inventory of warheads and nuclear materials that must be 
secured worldwide. She basically is suggesting, I think, that 
there is a lack of a risk-based global inventory on hand. Is 
that accurate, and if so, can we fix that? What is your 
assessment in that regard?
    Mr. Longsworth. She is right, there is no one document that 
has all of that information in there. Unfortunately, if you 
were to create such a document, there probably would be two or 
three people in the entire Federal Government that would be 
cleared to read it. So what we do is we package that kind of 
information into various programs.
    We have programs to address and are for the most part 
classified to address warheads. Our work with Russia is very 
open. We do that work--as I have indicated, we will be finished 
with all Russian Navy warhead sites this year.
    We are just embarking on an accelerated plan to secure what 
are called 12th GUMO sites, which are their large warhead 
consolidationsites in Russia.
    Any other activity that we have would be highly sensitive 
and obviously highly compartmented, but it is a misnomer to say 
that there isn't one report, because that is absolutely true 
but one report wouldn't do you very much good. We do keep track 
of, in a very centralized way--keeping these things in 
compartments, we do keep track of where we think fissionable 
material is, either in the form of a warhead, in bulk material 
and reactor fuel. If it's weapons-usable, we are tracking it.
    The report that we prepared that I mentioned in my 
testimony, the Global Reactor and Radiological Source Report 
that we just finished last May, was the first time that the 
government had ever put in one document all of the material 
that is not part of a weapons program. We only looked at 
civilian programs, but that was the first time that we had 
taken all of the world's civilian programs that have 
fissionable material and put that in one report. That report is 
classified. We can't talk about that in this session and we did 
use all sources, including Intelligence Community sources.
    But adding to that, then, what we know about other 
countries' nuclear weapons programs and the locations of their 
warheads and conditions of security would make that report even 
more sensitive than it is already. So it wouldn't be a useful 
report to have in one document. It wouldn't be usable by 
anybody.
    Mr. Inslee. Thank you.
    Mr. Whitfield. Mr. Walden's recognized for 10 minutes.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Longsworth, a DOE Inspector General's report from 
January of 2004 studied DOE's efforts to recover U.S.-origin 
HEU sent to foreign countries as you know, but according to 
this report there was no effort by DOE to recover an additional 
12,300 kilograms of HEU dispersed to foreign countries, which 
was not included in the HEU acceptance program. The IG report 
is more than a year old.
    Can you tell us why DOE did not originally include this 
12,300 kilograms of HEU in its HEU recovery program and whether 
the GTRI program will take steps to recover this material in 
the future?
    Mr. Longsworth. I can. The decision was made in the early 
1990's when this foreign research reactor fuel program takeback 
was initiated, and they identified a finite universe of 
reactors. They had criteria at the time that they used to 
identify the varieties of fuel and the locations. What we did 
last year was we realized that even that legal authority to 
take back that universe of material was about to expire. So 
first and foremost, we wanted to make sure we had the ability 
to bring back the material we had already identified, and I 
will say this is no criticism of anybody who has worked on the 
program in the past. We had managed that program out of the 
Office of Environmental Management, and we did it as a safety 
and environmental program.
    After 9/11 it became very clear that this material had 
other malevolent uses and so we--it was transferred into my 
program, because it was then viewed as a threat reduction 
program. So we have tried to accelerate that program since that 
time and have done so, but we are again focusing on that finite 
universe of material that we have legal authority to take back 
today.
    We are studying the other--the remaining material, which 
is--I believe, and I am going to get this--it's roughly a third 
of the U.S.-origin material was identified in the first 
environmental impact statement. That means roughly two-thirds 
is not covered.
    As I said earlier, some of that material is in countries 
like France, which we don't worry about as much, and Germany 
and other places, but there are some troubling locations 
outside in that remaining 60 percent. We are studying ways to 
address that material, and we are studying what legal authority 
we would need in order to repatriate that.
    Mr. Walden. I also understand the U.S. has exported 15,000 
kilograms of LEU to foreign countries. How much of this U.S.-
origin LEU has been recovered?
    Mr. Longsworth. I don't think any of it actually. I don't 
know. I don't know the answer, but I can take that for the 
record.
    Mr. Walden. How concerned should we be about that?
    Mr. Longsworth. Well, LEU is a commercial product. It is, 
of course, not useful in a weapons program unless you had a 
large facility, perhaps like Portsmith or Paducah, to enrich it 
up to a weapons grade.
    Mr. Walden. Can it be used for dirty bomb?
    Mr. Longsworth. No, it is not suitable for a dirty bomb.
    Mr. Walden. All right.
    Mr. McGaffigan. Sir, we don't have any security 
requirements beyond basic safety requirements for LEU fresh 
fuel. Obviously once it's irradiated, then it is a different 
story and we have very, very strict security requirements at 
our reactors for our spent fuel storage facilities. But once 
it's irradiated it's potentially useful for a dirty bomb. That 
is not, if I were a terrorist, where I would go to get the 
material.
    Mr. Walden. Mr. Longsworth, I understand that the GTRI 
program is working with other countries to improve the security 
of high-risk radioactive sources. For instance, you are working 
with other countries to improve security at hospitals that have 
radiation teletherapy units that contain large amounts of 
powder cesium. When you are finished with security enhancements 
at foreign hospitals, are they more secure than what NRC 
requires for security at hospitals with teletherapy units in 
America?
    Mr. Longsworth. In some cases yes, in some cases no. It 
depends on the security conditions in the country. What we have 
done in some countries is we do some simple things like put 
bars on windows so that somebody couldn't steal a source and 
throw it out to a waiting car and drive away. We put alarms on 
the actual--in the oncology clinics on top of the--with the 
machines that have the sources inside.
    It's very low--it's for the most part low tech. We assess 
whether they have response forces and what the response time 
might be if somebody attempted to take that source, either 
usually off hours when nobody's using the source. But it varies 
from country to country, and it is driven primarily by the 
security conditions in the country.
    Mr. Walden. Do you think in the end, though, that those 
hospitals will have a more secure environment than ones here as 
required by the NRC?
    Mr. Longsworth. It's going to vary dramatically from 
hospital to hospital. It's without a specific example.
    Mr. McGaffigan. Sir, I don't believe so. We have had 
together with the 33 Agreement States very robust requirements 
at the hospitals for such large sources over the years, before 
9/11.
    Since 9/11 we have advised them and we expect soon to issue 
orders to approximately 700 university research facilities and 
hospitals that have these sorts of materials to further enhance 
security.
    One of the issues that we deal with when we meet with that 
community is the cost of some of our additional controls, and 
we try to take that into account. We try to be reasonable, but 
our security requirements are solid. They are about to improve 
for that category of licensees very shortly. The staff has 
promised us the orders very shortly for that category of 
licensees that--hospital licensees.
    I, unfortunately, see doctors at the Washington Hospital 
Center more than I would like to, and I talk to the head of 
oncology there, and that--we rely basically--our philosophy in 
this country is to rely on local law enforcement and to have 
very--have multiple means of contacting local law enforcement 
within minutes.
    That is basically what our--and we expect the local law 
enforcement to help us, in addition to all the safety things we 
do to make sure people don't come in contact with these sources 
because it would be a real problem for them.
    Mr. Walden. Well, how do the GTRI program security 
improvements at foreign hospitals compare with what NRC 
requires? It's just all over the map; is that what you are 
saying?
    Mr. McGaffigan. This is an area where I am not sure we have 
had--we have--I think the fault is on both sides. We coordinate 
with the DOE Office of Security through this Government Sector 
Coordinating Council. The DOE Office of Security doesn't work 
for Mr. Brooks or Mr. Longsworth, and so whatever documents 
they have been using at foreign hospitals, like in Athens last 
summer, are not something that we have cleared in our 
documents. We only found out recently and have shared with 
them, we weren't necessarily sharing with them. We were sharing 
with the 33 States but weren't sharing with them. We have some 
problem here, but we are following on that. We are going to fix 
this. We are going to fix it promptly. We are going to be 
talking to Deputy Secretary Sell next week with all of the 
Commissioners, but this was not as coordinated as I think it 
might have been.
    I think within both of us, Paul has been given a mission 
overseas, and we are a regulatory agency and the timelines of 
the two don't always intersect. He felt that he needed to do 
stuff in Athens last summer. We are still working on the orders 
with the 33 Agreement States and the private sector to make 
sure and it is also security information. Hospitals don't have 
procedures for security information, and we are trying to help 
them in that area. So there is a sort of walk-before-you-run 
thing.
    Mr. Walden. But GTRI is planning to provide guidance for 
security enhancements at hospitals and at other facilities too 
that use high-risk sources here in the U.S., aren't you?
    Mr. McGaffigan. I think that what is happening, sir, and we 
are coordinated on this through the IAEA, there is a--there is 
some draft security documents that we, DOE and Department of 
State are currently working on.
    And we will coordinate on those documents before we go to 
other nations. And that is a commitment. That is a commitment.
    Mr. Walden. But I am informed GTRI has a pilot program 
working now?
    Mr. Longsworth. We have done some work here. Let me say, 
the work we have done overseas--the Athens example is a great 
example. We were asked by the Greeks to go look at their 
facilities in the run-up to the Greece Olympics to ensure that 
those sources were secured. And the work we did there, frankly, 
was very low cost at these clinics, and so we probably provided 
some things there that we might not provide other places simply 
because of the request of the Greek government. And the 
additional cost was almost immeasurable. We had teams there 
putting in extra locks and putting in bars on the window.
    Mr. McGaffigan. We had all of that. In the United States, 
we--the blood irradiators, if you go and visit one of the local 
hospitals, Children's Hospital or Washington Hospital Center or 
GW, or whatever, they are in the basement. They are secured. 
You know, you have all this lead shielding. That is why these 
things tend to be in the basement. And we don't have open 
windows where you have high-risk sources. It is just not--but 
that mostly is prior to 9/11.
    The additional things, we are really focusing on background 
checks. And I mentioned in my testimony, we would like the 
ability to do--the committee has given us the ability to do 
fingerprinting checks.
    Mr. Walden. My time has expired. Thank you for your answers 
and testimony.
    Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you, Mr. Walden.
    At this time I will recognize Dr. Burgess for his 10 
minutes of questioning.
    Mr. Burgess. Thank you, Mr. Chairman. And I apologize for 
being late. So if anything I ask is covering ground you have 
already covered, again, I apologize.
    But, Commissioner, do you want to finish that last thought 
about what has changed since 9/11?
    Mr. McGaffigan. Well, we are focused on making sure that 
there are multiple means of dealing with local law enforcement, 
and we are focused on having reliable people have access to the 
high-risk sources. But we could use additional authority, and 
this committee has provided it to us on multiple occasions, 
just never in a bill that got to the President, to have 
background checks and fingerprinting for some key individuals. 
We are not going to do everybody at the Washington Hospital 
Center, but we will do the people in the oncology department 
who have regular access to the high-risk sources if necessary. 
I mean, this is something we have to talk through with the 
States if we get the authority from the Congress.
    But the focus isn't on guards and guns at hospitals and 
research facilities. It is on making sure that there is very 
robust--that the stuff is controlled and that we have local law 
enforcement support. And we have had that in place, I believe, 
since March 17, 2003, since Operation Liberty Shield. Everybody 
was advised, and they take our advice seriously even though the 
order hasn't been issued to--in this category to have robust 
coordination with local law enforcement. That is the theory 
under which we proceed.
    Mr. Burgess. Very well.
    Along the lines of the high-risk sources, the NRC has over 
the last several decades licensed some high-risk sealed sources 
for commercial and industrial uses such as food irradiators. 
And they do contain a significant amount of radioactivity, 
which could be useful if you wanted to make one of those 
disbursal devices. When the NRC initially licensed these 
sources, NRC didn't require tracking of the high-risk sources. 
So I guess the question is, why not now develop that data base 
to track those high-risk sources?
    Mr. McGaffigan. Sir, we already have--we have done two 
things. We have an interim data base with the 99 percent 
response rate. And I can't promise it is perfect, but we know 
the 1,300 to 1,325 places that have high-risk material in a 
snapshot in time. We intend to issue a rulemaking which goes 
through all the processes that will allow us to have a national 
source tracking system which will have 1-day transactions. If 
somebody in Texas sends something to Kentucky, we will get both 
ends of the transaction within 1 day. It is going to be Web-
based. It is going to be secure. It is going to take, as I said 
earlier, $10 to $20 million over the next--I think the number 
is $14 million, I don't have it in my head. But that is just 
for the computer system and the support to the computer system. 
We have worked this with the States. We have worked it with our 
colleagues and other agencies through an interagency 
coordinating committee that includes the Department of Energy 
and the Department of Homeland Security.
    So we are aggressively moving out as rapidly as we can. We 
want this to be--I forget the--FISMA, is that the term? The 
information security oversight requirements of Congress. We 
want those to be built in from the get-go so we don't have to 
patch them on at the end.
    The staff has the goal of having phase one of this in place 
by the end of 2006. That is a very aggressive goal in 
information technology space and may be too aggressive, and we 
will back off. We are not going to put in place a system that 
isn't adequately secure.
    Mr. Burgess. Very well.
    Mr. Longsworth, has the Department of Energy pursued the 
use of commercial companies and facilities for the recovery and 
interim-based storage of domestic radioactive sealed sources?
    Mr. Longsworth. We are looking at commercial disposal. 
Right now, most sources require disposal at a DOE facility. So 
either we bring them to Los Alamos in most cases and we can--we 
are also looking at expanding our disposal capacity at other 
sites like the Nevada test site. We are hopeful that there will 
be commercial disposal options, increased disposal commercial 
options for these sources in the future. For the record, I can 
get you the exact percentages that currently go to commercial 
disposal, which is a significant percentage. We are trying to 
increase that to try to get more capacity in the commercial 
sector for disposal of unused and--of used and unwanted 
sources.
    So it would be your opinion that the Department is best 
served by using the existing sources of both commercial and 
governmental solutions?
    Mr. Longsworth. Absolutely. A mix of both is required. Now, 
some sources you will never be able to send to a commercial 
facility, so we will have to maintain some capability in our 
complex.
    Mr. Burgess. Mr. Chairman, I will yield back.
    Mr. Whitfield. Thank you. We are going to go a second round 
here to about 5 minutes for questions. So at this point, I will 
start a second round.
    In panel two's testimony, which we have all read, one of 
them refers to the Schumer amendment, to the 1992--in 1992--
that required recipients of U.S. HEU to commit to convert their 
reactors to using nonweapons-usable low-enriched uranium. And 
then at another point, they mentioned that, in the energy bill, 
the Schumer amendment was in effect removed or left nonoperable 
as it passed on the House side. Do you all have any comments on 
that?
    Mr. Longsworth. Well, I will speak for the administration. 
We actually supported the Schumer bill, the Schumer amendment, 
that we think that is a good standard. I will note, one of the 
consequences of that standard is that it did not make any kind 
of economic assessment about whether a facility could convert 
economically or not. And not that we are promoting that, but in 
some cases, some of the users of the these highly enriched 
uranium targets claimed that they could not economically 
convert and, therefore, might shut down and cutoff the supply 
of much needed rare isotopes for medical uses.
    But we support the Schumer amendment. And one of the 
reasons we are doubling the budget for designing new reactor 
fuels, part of that work also goes to design new targets so 
that you don't need highly enriched uranium targets to make 
medical isotopes.
    Mr. Whitfield. I guess, to be correct, that the language in 
H.R. 6 would create an exemption from the conversion 
requirement if the cost for such conversion exceeded 10 
percent.
    Mr. Longsworth. I was trying to articulate what I thought 
the amenders were seeking. But let me be very clear. The 
administration has said we do support the underlying Schumer.
    Mr. Whitfield. The underlying Schumer amendment.
    Mr. McGaffigan. And I believe the Commission has supported 
the committee's actions in H.R. 6. The only exports, we see--we 
follow the law. The only exports of HEU that have been at all 
problematic during my 9 years on the commission--and they 
haven't been really problematic, it is just that we have been 
trying to follow the law--are exports of HEU to Canada and to 
the Netherlands. Both countries have done extraordinary things, 
and they are close allies, to try to convert first to low-
enriched uranium fuel, of course, and then, in the case of the 
Canadians, they are trying, thus far without much success, 
working with Argon, to find alternatives to HEU targets for 
producing medical isotopes.
    So we have followed the law. We have conditioned the 
exports. That is our authority. We get executive branch views. 
And we have thus far agreed with the executive branch that the 
problem that the licensee would point out is that they are in a 
bit of a do loop in that they believe in annual reports 
submitted to us--I am talking about the Canadian licensee at 
the moment. They have to say that there is an active program 
under way--Schumer amendment requires that--with Argon. But 
if--the economics they think is prohibitive, but they haven't 
tied that down, partly because they haven't got the reactor 
working yet. So it is a very complicated area that staff has 
worked out I believe as part of the conference report. The last 
Congress' H.R. 6, a provision that was--is certainly acceptable 
to the commission, and I think Chairman Diaz has said that in 
previous correspondence.
    Mr. Longsworth. Let me clarify also, as the Commissioner 
said, it is not possible today for the Canadian facility to 
convert, so there is no requirement to stop shipments of 
targets. But I think--and, again, we are working to try to 
develop those targets and to do so in an economic way.
    Mr. Whitfield. Let me make sure I understand. You support 
the underlying Schumer amendment. But do you have an official 
position on the way the language read as it passed, the energy 
bill passed?
    Mr. Longsworth. Let me clarify. I think the underlying 
Schumer amendment--we support the notion that if a facility can 
convert, then we should explore ways to make that possible.
    Mr. Whitfield. Okay.
    Mr. Longsworth. Congress will have to make an assessment 
about whether, because of that requirement and perhaps a 
licensee's inability to economically convert, that you might 
lose that critical isotope production. But we are trying to 
make it possible. Our mission is to try to make it possible for 
facilities that use HEU in any use to convert. That may not be 
economic for all users, and, again, that would--I think that 
would defer back to you, Mr. Chairman.
    Mr. Whitfield. Thank you very much.
    I will recognize Mr. Inslee.
    Mr. Inslee. Thank you.
    Mr. Longsworth, can you give us some sort of percentages 
perhaps by weight or volume of what is out there to be still 
secured or obtained, where we are and where we get to the end 
point? I mean, can you put this in percentages for us?
    Mr. Longsworth. Percentages of how much material is out 
there and how much we have actually secured?
    Mr. Inslee. Yes. Or otherwise secured and obtained in our 
own possession. I am just trying to get a lay perspective of 
where we are in this job.
    Mr. Longsworth. Well, Russia is to weapons-usable nuclear 
material what Saudi Arabia is to oil. I mean, most of the 
material is in Russia. It is estimated to be 600 metric tons; 
it may be more. It is most likely maybe less than that, but 600 
metric tons is the benchmark that we use for Russian material. 
Now, that is just material at their facilities that are 
equivalent to DOE facilities. So their material 
productionsites, we think, house about 600 metric tons.
    There is some number of metric tons which in classified 
session we can go into that are in the form of warheads or 
weapons parts that are in their production chain. That is a 
smaller number, obviously. But, in Russia, again, we are 
working to secure all of that material. And we are on track to 
be done with everything including warheads perhaps as early as 
2009.
    Mr. Inslee. So what percentage have we obtained up to now? 
Is it half? 70 percent? What?
    Mr. Longsworth. Again, warheads were--they don't tell us 
exactly how many warheads they have. That is at various 
locations, so that is against Russian law for them to tell us 
that. But we will be done with all of the Navy sites this year. 
We will be done with strategic rocket forces we think in 4 or 5 
years. And then--and we think in that timeframe we can also be 
done with all of the 12th GUMO sites which tend to be larger 
sites and which are warhead consolidationsites.
    For the 600 metric tons that is in their productionsites, 
we are about halfway done in terms of volume. We are about 
three-quarters of the way done in terms of locations, which 
means that last 25 percent of locations or sites houses a much 
higher percentage, or a much higher volume of material remains 
at those last few sites.
    Mr. Inslee. Now, could we--is there a one-to-one 
correlation between our appropriations and our speed of 
finishing that job? If we are halfway through now, if we double 
your appropriation, can you get the job done in half the time?
    Mr. Longsworth. I don't think it is quite that math for it 
depends on what year you are in. From 2001 roughly to 2002, 
2003, we were not limited by funding. We were limited by the 
Russians' ability to absorb our funding. We then made several 
breakthroughs where we needed additional funds. We asked for 
funds. Congress gave us some additional funds, and we have 
caught up. We are now at the point where I think we are fully 
funded to achieve our 2008 deadline for the 600 metrics tons, 
and we are fully funded for the warhead work as well.
    There are two caveats I would put on that answer. One is 
for the 600 metric tons; it requires the Russians to give us 
access to their serial production enterprises, these last--
their last sites, which we have never been given access to. 
These sites have ongoing nuclear weapons work. They are the 
most sensitive sites in Russia. And I think one Russian told me 
that no Westerner has ever set foot in these closed sites. So 
getting into those sites or at least implementing programs that 
will enhance security of those facilities and doing so in a way 
that we can verify that the work was actually done, that is a 
challenge, and that is a roadblock that we have to overcome if 
we are going to meet the 2008 deadline.
    Mr. Inslee. So what is the date for the 600 tons?
    Mr. Longsworth. 2008.
    Mr. Inslee. 2008.
    Mr. Longsworth. 2008, yes, sir.
    Mr. Inslee. Okay. And for completion of the warheads, that 
is?
    Mr. Longsworth. 2008, 2009. We are waiting for the Russian 
federation to give us a comprehensive list of sites that they 
want to do work at.
    Mr. Inslee. A quick question. What do you see as the most 
serious threat, domestic or overseas, and why? I mean, if you 
had to sort of pick the one thing that would make you lose the 
most sleep, what would you say it was?
    Mr. Longsworth. In my mind, it is a lost nuclear warhead, 
because that is ready to use, and probably an artillery shell 
or something that is a man-portable nuclear weapon. That is a 
very low-risk, high-consequence event. The Russians do provide 
better security for warheads than they do for bulk material in 
most cases. So it is a lower risk, but the consequence is high.
    At the other end of that spectrum is a potential use of an 
RDD device, which is a lower consequence but a higher 
probability because of the availability of those sources. But 
the thing that I think that, when we prioritize our work, we 
prioritize--warheads get the highest priority. If we are given 
the ability or access to secure a warhead site, we will divert 
all of our resources to do that first. Then we go to bulk 
fissionable material. This is the 600 metric tons. And then 
kind of last on our list would be an RDD. So we would--that is 
how, if you want to think of it in a rough priority, that is 
how we would prioritize our work. And that is actually in our 
budget guidance, and we manage that. We build our budgets based 
on that.
    Mr. Inslee. Thank you.
    Mr. Whitfield. Thank you, Mr. Inslee.
    Dr. Burgess, do you have any further questions?
    Mr. Burgess. Mr. Chairman, in the interest of time, I will 
yield back.
    Mr. Whitfield. Well, that would conclude the testimony and 
questions for panel one. I would remind you all, since you have 
been so kind to already spend an hour and a half with us, that 
after we finish the opening statements, the statements and 
questions for panel two, we will move into closed session in 
2218. And that will probably be within 45 minutes from now. So 
thank you all. And we look forward to seeing you in 2218.
    At this time I would like to call the witnesses for the 
second panel. First, Dr. Charles D. Ferguson, who is a fellow 
of science and technology at the Council on Foreign Relations; 
and Ms. Joan Rohlfing, who is the senior vice president for 
programs and operations for the Nuclear Threat Initiative. We 
genuinely appreciate your being with us this afternoon, and we 
look forward to your testimony.
    As you know, this is an investigative hearing, and 
normally, we take testimony under oath. And I would ask you 
all, do you have any difficulty in giving your testimony under 
oath this afternoon? And of course, you would have a right to 
counsel. Do you have a wish to have counsel with you when you 
testify?
    Then if you will rise and raise your right hand.
    [Witnesses sworn.]
    Mr. Whitfield. Thank you. You are now under oath, and you 
may give your 5-minute summary of your written statement.
    And, Dr. Ferguson, we will recognize you for 5 minutes.

     TESTIMONY OF CHARLES D. FERGUSON, FELLOW, SCIENCE AND 
TECHNOLOGY, COUNCIL ON FOREIGN RELATIONS; AND JOAN B. ROHLFING, 
  SENIOR VICE PRESIDENT FOR PROGRAMS AND OPERATIONS, NUCLEAR 
                       THREAT INITIATIVE

    Mr. Ferguson. Thank you very much, Mr. Chairman--and 
Congressman Inslee I see left the room--and Congressman 
Burgess. Thank you for this opportunity to contribute to this 
important hearing on GTRI.
    Because U.S. governments witnesses have ably reviewed the 
accomplishments to date and the progress in achieving current 
program goals, I will address some urgently needed 
enhancements.
    The United States should continue to delegitimize use of 
civilian highly enriched uranium. The United States government 
policy already points strongly in this direction. The GTRI Web 
site in particular states that one of its important goals is 
to, ``minimize and to the extent possible eliminate the use of 
highly enriched uranium, HEU, in civilian nuclear applications 
worldwide.''
    Lending support for this longstanding policy, Congress 
passed in 1992 the Schumer amendment to require recipients of 
U.S. HEU to commit to converting their reactors to using 
nonweapons-usable low-enriched uranium.
    Mr. Chairman, I urge your committee to strengthen the 
purpose behind the Schumer amendment. At a time when President 
Bush has identified terrorists armed with nuclear weapons as 
the gravest danger our country faces and at a time when Osama 
bin Laden, one of America's greatest enemies, covets nuclear 
weapons, we need to make sure that U.S. legislation does 
everything it can to remove the temptation of HEU from nuclear 
terrorists.
    Mr. Chairman, it may be too little too late, because the 
House energy policy act of 2005, H.R. 6, was sent to the Senate 
recently, but I believe it is important to discuss some serious 
concerns with Section 603 of that legislation. If enacted, the 
amendment in that section will allow highly enriched uranium to 
continue to be prevalent in the marketplace. This is in direct 
opposition to President Bush's policy of keeping these 
materials out of the hands of terrorists.
    The amendment removes the incentives in current law for 
isotope producers to work with the United States to resolve 
technical conversion issues and reduce the cost of converting 
to LEU. The study under the amendment is a fiction. The biggest 
problem is the amendment's definition of feasibility of 
conversion to LEU, a less than 10 percent increase in the cost 
of producing isotopes. Current law simply defines it as a less 
than a large percentage increase. The 10 percent definition is 
arbitrary and has no demonstrable relationship to the 
commercial feasibility of isotope production or to the price 
that consumers must pay. In fact, the isotope production cost 
is only a small fraction of the total product cost.
    The study itself should weigh the cost of conversion 
against the benefit of reducing the threat of nuclear terrorism 
without presuming in advance what an acceptable cost would be. 
We already know that conversion to LEU is feasible because 
companies in other countries have successfully done it. The 9-
year time line, 5 years for the study followed by 4 additional 
years that isotope producers would have to convert to LEU, is 
strong evidence of the real purpose of this amendment: create 
lots of smoke in the language and look serious. But the real 
impact will be to repeal current protections for keeping HEU 
out of the hands of terrorists.
    Keeping current law in place will not affect medical 
treatment of any patient. As long as foreign companies make a 
good-faith effort to pursue conversion, they can continue to 
receive HEU from the United States.
    Now let me turn to another issue. The United States should 
promote removal of HEU from potentially vulnerable sites to any 
secure location, not necessarily the country of origin. GTRI is 
striving to repatriate Soviet- and Russian-origin HEU fuel and 
U.S.-origin HEU fuel back to Russia and the United States. 
While this objective is laudable, if GTRI encounters resistance 
in expeditiously repatriating HEU fuel back to the country of 
origin, GTRI program managers should develop the program 
flexibility to remove this dangerous material to any secure 
site.
    For instance, if a particular country holding Soviet-origin 
HEU objects to repatriating this material to Russia, GTRI 
managers should try to find a creative way to go around this 
roadblock. These managers should request, if necessary, the 
program flexibility to emphasize removing vulnerable HEU and 
not be tied down to restrictive repatriation policy.
    Next, the United States should mobilize its intelligence 
resources to support the mission of GTRI. To help GTRI meet the 
worthy goals of securing HEU and converting HEU fuel research 
reactors, better intelligence assessments of facilities 
containing HEU are urgently needed. While NNSA recognizes that 
the insider threat is the most dangerous threat to loss of HEU 
from these facilities, it is unclear whether NNSA has developed 
detailed intelligence profiles of each facility. If it has not 
already done so, Mr. Chairman, I recommend that your committee 
urge NNSA and GTRI managers to coordinate their program 
activities with the intelligence community.
    To determine how vulnerable HEU at a facility is to theft 
or diversion, the United States needs to know who works at each 
facility, how susceptible is each worker to blackmail and other 
means of coercion, how much scientific or commercial work is 
done at each facility, and what physical security protection 
measures are in place. A detailed intelligence profile would 
also determine how much it would cost to shut down each 
facility and direct workers to early retirement or to move 
their research or commercial activities to a more secure 
facility. The United States needs to move as quickly as 
possible along as many parallel paths to remove HEU from 
vulnerable facilities, to convert needed facilities to low-
enriched uranium use and to shut down or buy out unneeded 
facilities.
    Now, in my remaining time, let me quickly turn to the 
second major component of GTRI, dealing with the threat of RDDs 
or dirty bombs. GTRI should work closely with the Nuclear 
Regulatory Commission to apply lessons learned in the 
successful recovery of thousands of unused radioactive sources 
within the United States. As you know, Mr. Chairman, there are 
two regulatory systems within the United States: the agreement 
State system and another system that is directly licensed by 
the NRC itself.
    One of my students at Georgetown University in the masters 
degree program recently did his masters thesis on looking at 
the agreement states versus nonagreement states. He has 
uncovered evidence that the agreement states appear to be doing 
a much better job at controlling their radioactive sources. So, 
Mr. Chairman, I would urge your committee that we need to do an 
expanded study. Unfortunately, my student only had enough 
resources to look at four states. I believe that we need to 
encourage the NRC, GTRI, and the agreement states to work 
together to share information to determine the best security 
practices among the states. In the interest of impartiality, 
Mr. Chairman, I recommend that independent institutions such as 
the National Academy of Sciences perform this analysis.
    And, finally, the United States international partners 
should build a sustainable radioactive material security 
system. Mr. Longsworth talked at length about this, so I won't 
go on. Let me just jump to what I think was not covered and 
needs to be covered. And I am not recommending phasing out 
radioactive materials; I agree with you, Mr. Chairman, that 
they serve very beneficial uses. But they can be used more 
wisely, and we could apply smart alternative technologies to 
phaseout selective high-risk radioactive sources. This has 
already been done in selected industries in the United States. 
It has saved money. It has increased safety and security. But I 
think we need to do a much better effort at looking at ways to 
introduce alternative technologies to make these radioactive 
sources even more secure.
    And one other point related to that, Mr. Chairman, is that 
the national laboratories, in particular Los Alamos National 
Laboratory, have done research on trying to make certain 
radioactive sources less dispersible, less potent if used in an 
RDD or dirty bomb. And what we need to do is develop a private-
public partnership to try to figure out how to take those ideas 
and that research into the marketplace to try to phaseout 
dispersible radioactive materials and put in place radioactive 
materials that are more secure and safe.
    Mr. Chairman, thank you very much for giving me an 
opportunity to contribute to this hearing and to offer some 
recommendations to enhance national security and prevent the 
use of nuclear radioactive materials in acts of nuclear 
terrorism.
    [The prepared statement of Charles D. Ferguson follows:]

    Prepared Statement of Charles D. Ferguson, Fellow, Science and 
                Technology, Council on Foreign Relations

    Mr. Chairman, I appreciate the opportunity to contribute to this 
important hearing on the Department of Energy's Global Threat Reduction 
Initiative to combat nuclear and radiological terrorism. My work on 
preventing nuclear and radiological terrorism began on September 12, 
2001, when I was serving in the Department of State's Office of the 
Senior Coordinator for Nuclear Safety. On that date, I was asked to 
write a memorandum to then-Secretary of State Colin Powell warning him 
about the threat of radiological dispersal devices (RDDs), one type of 
which is popularly called a ``dirty bomb.'' In March 2002, I left 
government service to work as scientist-in-residence at the Monterey 
Institute's Center for Nonproliferation Studies (CNS). In January 2003, 
CNS published ``Commercial Radioactive Sources: Surveying the Security 
Risks,'' one of the first in-depth post-9/11 reports on the RDD threat. 
I was the lead author of that report. Involvement in that report led to 
officials at the Department of Energy's National Nuclear Security 
Administration (NNSA) hiring me, as a non-governmental consultant, in 
April 2003 to help them develop their action plan to secure dangerous 
radioactive sources that could fuel potent RDDs. I am pleased that in 
May 2004, then-Secretary of Energy Spencer Abraham launched the Global 
Threat Reduction Initiative (GTRI), an integrated program to apply 
NNSA's expertise to securing, removing, and disposing of both high-risk 
radioactive sources and nuclear-weapons-usable highly enriched uranium 
throughout the world.
    This first anniversary of GTRI's launch presents an opportune time 
to take stock of what GTRI has accomplished and what the United States 
needs to do to continue to strengthen nuclear and radiological security 
efforts. NNSA deserves substantial credit for working to prevent 
nuclear and radiological terrorism through the GTRI and other important 
programs. Because the U.S. government's witnesses have ably reviewed 
the accomplishments to date and the progress in achieving current 
program goals, I will mainly provide a brief assessment of the thinking 
behind GTRI and then will address some urgently needed enhancements.
    Among U.S. government agencies, the NNSA has the unique technical 
and policy strength to tackle nuclear and radiological terror threats. 
It can draw on the technical talent residing in the U.S. national 
laboratories. In particular, Argonne National Laboratory has provided 
much of the technical muscle in working to convert dozens of research 
reactors worldwide from weapons-usable highly enriched uranium (HEU) to 
non-weapons-usable low enriched uranium. For decades during the Cold 
War, the two major suppliers of HEU-fueled reactors were the Unites 
States and the Soviet Union. Starting in the late 1970s, the United 
States and the Soviet Union recognized the dangers of HEU-fueled 
research reactors and began a program to convert these reactors to low 
enriched fuels. Based on the past several years of nuclear security 
work in the former Soviet Union, NNSA officials have also formed 
valuable working relationships their counterparts in this region, where 
large stockpiles of vulnerable radiological and nuclear materials are 
located. GTRI has expanded its reach beyond the former Soviet Union to 
include about 40 countries.
    Domestically, the Department of Energy, for decades, has had the 
responsibility to provide a secure disposal pathway for many of the 
most potent commercial radioactive sources. In late 2003, NNSA was 
wisely put in charge of this important domestic program--the Off-Site 
Source Recovery (OSR) Project--because the Department's leadership 
recognized it is a national security program as well as a radioactive 
waste disposal program. The OSR Project deserves praise for 
successfully exceeding its congressional mandate by securing more than 
10,000 at-risk disused radioactive sources throughout the United 
States. I believe that it should continue to receive needed financial 
support from Congress. The program expenditures to date have been very 
modest compared to the accomplishments.
    In sum, GTRI works both domestically and internationally. This 
broad-based approach should give GTRI the capability to apply lessons 
learned within the United States to challenges confronted abroad.
    Also, GTRI works to prevent use of the quintessential weapon of 
mass destruction--a nuclear explosive--and the archetypal weapon of 
mass disruption--a radiological dispersal device. Security experts 
agree that terrorist detonation of a nuclear weapon is far less likely 
to happen, but far more damaging, than terrorist use of a radiological 
weapon. While there is consensus on this qualitative risk assessment, 
there is disagreement among experts about how to allocate scarce 
government resources to combating nuclear and radiological threats.
    Should the U.S. government and its international partners spend 
more resources on preventing and preparing for the most damaging or the 
most likely acts of nuclear and radiological terrorism? To answer this 
question, I devoted more than two years while at CNS writing the book 
The Four Faces of Nuclear Terrorism with William Potter, Amy Sands, 
Leonard Spector, and Fred Wehling. Published last year, this book 
provides a prioritized plan for combating nuclear and radiological 
threats. The book's fundamental conclusion ``is that the United States 
must work immediately to reduce the probability of nuclear terror acts 
with the highest consequences and mitigate the consequences of the 
nuclear terror acts that are the most probable.'' Because of the 
horrendous damage from a nuclear explosion, I believe that the United 
States needs to spend more resources on preventing this threat from 
occurring than preventing the much less harmful dirty bomb attack. 
Nonetheless, as discussed in detail below, a wise, but still limited, 
investment of government resources can do much to reduce the likelihood 
and consequences of dirty bomb attacks.
    The highest consequence nuclear terror act--terrorist detonation of 
a nuclear explosive--would have devastating effects and could cause the 
American people to lose confidence in their government. To carry out 
that attack, terrorists would need to acquire an intact nuclear weapon 
from a military arsenal or to seize highly enriched uranium or 
plutonium to make an improvised nuclear device. Of these three pathways 
to devastating nuclear terror, the highly enriched uranium route offers 
terrorists the easiest method, assuming that official custodians of 
nuclear weapons do not provide terrorists detailed assistance in 
detonating an intact nuclear weapon. Unlike plutonium, HEU can fuel the 
easiest to build nuclear weapon--a gun-type device--the type of bomb 
exploded at Hiroshima. Such a crude, but devastating, weapon would not 
require nuclear testing and would be within the technical capability of 
certain terrorist groups. The most significant hurdle to the terrorists 
is access to sufficient amounts of HEU. While governments must provide 
rigorous security around intact nuclear weapons and plutonium 
stockpiles, they must prioritize securing, consolidating, and 
eliminating HEU stocks in both the military and civilian sectors. 
Because GTRI aims to reduce and remove HEU from vulnerable locations 
throughout the world, it is on the right path. But the United States 
can do much more to accelerate efforts to secure and remove dangerous 
HEU.
    The United States should continue to de-legitimize use of civilian 
highly enriched uranium. U.S. government policy already points strongly 
in this direction. The GTRI Web site, in particular, states that one of 
its important goals is to ``minimize and, to the extent possible, 
eliminate the use of highly enriched uranium (HEU) in civil nuclear 
applications worldwide.'' Dating back to at least 1978 with the 
beginnings of the Reduced Enrichment for Research and Test Reactors 
(RERTR) program, the United States has been striving to remove HEU from 
the civilian sector. Lending further support for this policy, Congress 
passed in 1992 the Schumer amendment to require recipients of U.S. HEU 
to commit to converting their reactors to using non-weapons-usable low 
enriched uranium. Mr. Chairman, I urge your committee to strengthen the 
purpose behind the Schumer amendment. At a time when President Bush has 
identified terrorists armed with nuclear weapons as the gravest danger 
that our country faces and at a time when Osama bin Laden, one of 
America's greatest enemies, covets nuclear weapons, we need to make 
sure that U.S. legislation does everything that it can to remove the 
temptation of HEU from nuclear terrorists. Consequently, I recommend 
that your committee should work to determine what it would require in 
terms of financial cost and political commitment for medical isotope 
production companies requesting HEU supplies to convert expeditiously 
to employing low enriched uranium in their isotope production reactors.
    The United States should promote removal of HEU from potentially 
vulnerable sites to any secure location, not necessarily the country of 
origin. GTRI is striving to repatriate Soviet- and Russian-origin HEU 
fuel in seventeen countries back to Russia; similarly, it is working to 
repatriate U.S.-origin fuel in several countries back to the United 
States. While this objective is laudable, if GTRI encounters resistance 
in expeditiously repatriating HEU fuel back to the country of origin, 
GTRI program managers should develop the program flexibility to remove 
this dangerous material to any secure site. For instance, if a 
particular country holding Soviet-origin HEU objects to repatriating 
this material to Russia, GTRI managers should try to find a creative 
way to go around this roadblock. Perhaps officials of the country in 
question would welcome sending their HEU to an existing secure facility 
outside of Russia. GTRI managers should request, if necessary, the 
program flexibility to emphasize removal of vulnerable HEU and not be 
tied down to a restrictive repatriation policy.
    The United States should mobilize its intelligence resources to 
support the mission of GTRI. To help GTRI meet the worthy goals of 
securing HEU and converting HEU-fueled research reactors, better 
intelligence assessments of facilities containing HEU are urgently 
needed. While NNSA recognizes that the insider threat is the most 
dangerous threat to loss of HEU from these facilities, it is unclear 
whether NNSA has developed detailed intelligence profiles of each 
facility. If NNSA is not already doing so, Mr. Chairman, I recommend 
that your committee urge NNSA and GTRI managers to coordinate their 
programs' activities with the intelligence community. To determine how 
vulnerable HEU at a facility is to theft or diversion, the United 
States needs to know who works at each facility, how susceptible is 
each worker to blackmail or other means of coercion, how much 
scientific or commercial work is done at each facility, and what 
physical security protection measures are in place. A detailed 
intelligence profile would also determine how much it would cost to 
shut down each facility and direct workers to early retirement or to 
move their research or commercial activities to a more secure facility. 
Shutting down and consolidating vulnerable HEU facilities could result 
in significant monetary savings. The United States needs to move as 
quickly as possible along as many parallel paths to remove HEU from 
vulnerable facilities, to convert needed facilities to low enriched 
uranium use, and to shut down or buy out unneeded facilities.
    Turning to the second major component of GTRI, I want to address 
the issue of radioactive materials security. In certain respects, this 
issue involves a different security paradigm than HEU security. Unlike 
HEU, radioactive sources have a legitimate commercial use. Every day, 
millions of people rely on radioactive isotopes to perform beneficial 
medical, industrial, and scientific purposes. In contrast to de-
legitimizing HEU use, it would cause more harm than good to completely 
phase out use of radioactive sources. That being stated, NNSA and the 
Nuclear Regulatory Commission (NRC) along with international partners, 
such as the G-8 and the International Atomic Energy Agency, can work 
together to more smartly employ radioactive sources and ionizing 
radiation.
    GTRI should work closely with the NRC to apply lessons learned in 
the successful recovery of thousands of disused radioactive sources. 
Within the United States, there are two regulatory systems for control 
of radioactive sources. The Agreement States system, formed under the 
1954 U.S. Atomic Energy Act, as amended, includes 33 states. These 
states have primary responsibility, with the NRC providing an oversight 
role, for licensing commercial radioactive sources within their 
jurisdictions. In contrast, the other 17 states turn to the NRC to 
directly license their sources. Recently, Morgan Baker, one of my 
graduate students at the Security Studies Program at Georgetown 
University, discovered while writing his Master's degree thesis that 
the states under the Agreement States system appear to control their 
radioactive sources better than those states directly licensed by the 
NRC. Because of his resource and time constraints, he only examined 
four states. The GTRI's Off-Site Source Recovery program has amassed a 
database of thousands of disused sources found throughout the United 
States. This database can be mined for valuable information as to which 
states have done the best job at controlling radioactive sources. Mr. 
Chairman, I urge your committee to direct the NRC, the GTRI, and the 
Agreement States to work together to share information in order to 
determine best security practices among the states. In the interests of 
impartiality, Mr. Chairman, I recommend that an independent 
organization, such as the National Academy of Sciences, perform the 
analysis.
    The United States and international partners should build a 
sustainable radioactive materials security system. Such a system would 
go beyond merely locking up high-risk radioactive sources. GTRI 
officials to a large extent recognize this and have been leveraging 
IAEA assistance as well as working closely with their counterparts in 
other countries to develop a safety and security culture. To paraphrase 
words of wisdom from the Bible, it is better to teach a man how to 
build his own effective security system than to keep providing security 
for him. Nonetheless, for countries with weak controls over radioactive 
sources, there is an urgent need for GTRI to provide rapid security 
upgrades. A long term sustainable solution involves strengthening the 
regulatory systems within those countries. The IAEA has had a program 
to do that since 1995. But building strong regulatory systems take 
time. They cannot just be legislated into existence. Training skilled 
regulatory officials requires sustained effort. Another important 
aspect of making the security of radioactive sources stronger is using 
these materials wisely. As explained earlier in this testimony, 
radioactive materials should not be fully phased out. Nonetheless, 
smart alternative technologies can be used to replace certain types of 
high-risk radioactive sources. In the fall 2003 volume of the National 
Academies journal Issues in Science and Technology, Joel Lubenau, a 
former senior adviser to the Nuclear Regulatory Commission, and I 
wrote:
          The International Commission on Radiological Protection and 
        the congressionally chartered National Council on Radiation 
        Protection and Measurements (NCRP) hold as a pillar of 
        radiation protection the principle of justification. This 
        principle calls for evaluating the risks and benefits of using 
        a radioactive source for a particular application. Users are 
        supposed to opt for a nonradioactive alternative if there is 
        one that provides comparable benefit and less risk, including 
        the risk associated with waste management.
          The NRC has taken the position that advocating alternative 
        technologies is not part of its mission. The commission's 
        reasons, which have not been explained, might be that it 
        believes it is only in the business of regulating the 
        radioactive sources that licensees choose to use, not the 
        business of overseeing licensees' decisions to use them. 
        Nonetheless, it can be argued that the NRC's charge from 
        Congress--to protect public health, safety, and property as 
        well as provide for the common defense and security--is 
        sufficient to require the commission to adopt the principle of 
        justification and, at least in principle, to encourage the 
        consideration of alternative technologies. This is not to 
        suggest that the NRC should second-guess licensees' decisions 
        to use radioactive sources, simply that the commission should 
        ensure that licensees are making informed decisions that take 
        into account justification and technological alternatives. 
        Applying the principle of justification would reduce the number 
        of radioactive sources in use and thus cut the risk of an RDD 
        event occurring. The National Academy of Sciences, the 
        International Atomic Energy Agency (IAEA), the NCRP, and the 
        Health Physics Society have all recommended that users consider 
        alternative technologies.
          One U.S. industry that is adopting alternative technologies 
        is steel, itself no stranger to the risks and costs of 
        radioactive contamination. Steel mills use nuclear gauges to 
        monitor the level of molten steel in continuous casters. If 
        molten steel breaks through the casting system and strikes a 
        gauge, the gauge housing and even the source could melt, 
        causing contamination. Accordingly, mill operators are 
        replacing nuclear gauges on continuous casters with eddy 
        current and thermal systems, even though they are more 
        expensive. The tradeoff--the cost of alternative technology 
        versus the cost of contamination--makes the new systems a smart 
        choice.
          Some of the national laboratories are performing R&D to 
        replace the most dangerous radioactive sources (those 
        containing very dispersible radioactive compounds) with sources 
        that pose less of a security hazard. Unfortunately, technology 
        developed at the national labs is not readily available to the 
        marketplace. At an IAEA conference on the radioactive source 
        industry in April 2003, major source producers reportedly 
        expressed interest in forming public-private partnerships to 
        bring these alternative technologies to market. In the United 
        States, such partnerships are sorely needed.
    Mr. Chairman, I recommend that you encourage the NRC to keep 
licensees informed of smart alternative technologies that can safely 
and securely replace certain high-risk radioactive sources. I also 
recommend that your committee encourage the formation of private-public 
partnerships to develop radioactive sources that are less hazardous to 
use in potent dirty bombs. This action plan would support U.S. security 
and complement the important national security work done by the NRC and 
GTRI.
    Mr. Chairman, thank you very much for giving me the opportunity to 
contribute to this hearing and to offer some recommendations to enhance 
national security and to prevent the use of nuclear and radioactive 
materials in acts of nuclear terrorism.

    Mr. Whitfield. Thank you, Dr. Ferguson.
    And, Ms. Rohlfing, you are recognized for 5 minutes.

                  TESTIMONY OF JOAN B. ROHLFING

    Ms. Rohlfing. Thank you, Mr. Chairman, and members of the 
committee for the opportunity to testify today. I would like to 
request that my written statement be entered into the record, 
and I will offer a brief oral statement.
    The gravest threat facing the Nation today is the potential 
for a terrorist organization to use a nuclear device in the 
heart of an American city, not a dirty bomb but a nuclear yield 
producing device bomb similar to Hiroshima. It is this threat, 
the threat of a nuclear blast not a radiological weapon, that I 
will focus on, because I believe that an attack using a nuclear 
bomb is the most serious and the consequences the most dire for 
our Nation, the globe and our way of life. Let me say, I am not 
an alarmist by nature, but in this testimony today, I hope to 
ring an alarm bell.
    Terrorists have several pathways to a nuclear bomb. They 
can acquire through theft or illicit purchase a fully intact 
warhead from an existing nuclear weapons state. Or, more 
likely, they will fabricate a crude nuclear device from a 
stolen or illicitly purchased nuclear material, either 
plutonium or highly enriched uranium. Getting plutonium or 
highly enriched uranium, HEU, the essential ingredients of a 
nuclear bomb, is the hardest step in making a weapon. These 
materials are difficult to make, and current plutonium and HEU 
production technologies require large, expensive and 
technically sophisticated facilities that are today within the 
exclusive domain of nation states.
    Acquiring these materials through theft or illicit purchase 
is the most difficult step for terrorists to take and the 
easiest for us to stop. Unfortunately, the essential 
ingredients of nuclear bombs are spread around the world, much 
of it in purely secured facilities. HEU is of particular 
concern because the simplest design for a nuclear device, a so-
called gun-type design, is based on HEU. There are over 40 
countries that possess more than 100 research facilities that 
use this material. Effectively reducing nuclear danger will 
require global action and unprecedented global cooperation.
    Governments around the globe, including the U.S. 
Government, are not yet acting with the urgency or priority of 
purpose required to address the threat. For example, 
incredibly, given what is at stake, there is no comprehensive 
baseline inventory of warheads and nuclear materials that must 
be secured worldwide. There is no scorecard to keep score 
against. And let me clarify: This was a question that came up 
in the Q-and-A session. There was a question of Mr. Longsworth 
about whether there is a comprehensive baseline inventory. He 
suggested that there is no single integrated document. I am not 
talking about creating a single integrated document, and most 
certainly, it should be classified whenever this inventory is 
created. I am talking about gaps in our knowledge. We don't yet 
know where all of the weapons-usable material is, and 
therefore, we can't keep score against it.
    The Department of Energy's Global Threat Reduction 
Initiative is helping to reduce, secure and eliminate HEU, 
plutonium and dangerous radioactive sources on a global basis. 
But is GTRI doing enough, fast enough, to prevent the ultimate 
catastrophe of nuclear terrorism from occurring? Has it been 
given the tools it needs to perform this most critical of 
missions effectively and rapidly? I believe it has not. The 
program is not yet delivering the protection we need with the 
urgency that we need it.
    What will it take to create the kind of program that can 
deliver the results we need on the timetable we need it? My 
written testimony provides detailed suggestions for making the 
program more effective, but I will sum up the main idea in one 
sentence: We need to build a bold aggressive Apollo-like 
program to prevent nuclear terrorism. We should be challenging 
ourselves to think in terms of creating a model program. The 
Apollo and Manhattan projects are two examples of what we can 
do when we have a national goal and provide the leadership, 
resources and authorities needed to achieve the goal.
    Incredibly, even though our way of life is at stake here, 
we are pursuing a business-as-usual approach to preventing 
nuclear terrorism. We are talking about timelines. Just--if you 
look at the budget documents submitted to the Congress, the I 
would say very ambitious and frankly unrealistic timelines that 
are described in those budget documents that go out 10 and in 
some cases 14 years from now, are unrealistic because they are 
not taking into account the entire universe of materials out 
there. And if we go about reclaiming materials, securing 
materials, locking them down at the pace that we have been with 
existing programs, it is going to take the better part of a 
quarter of a century. So we are nowhere near where we need to 
be in terms of the pace of getting this job done.
    The price of slow action could easily be loss of life, 
property and freedom on an unprecedented and catastrophic 
scale. We must recognize that we don't have the luxury of time 
to pursue a business-as-usual approach, and we must act 
accordingly.
    In conclusion, a nuclear terrorism event has the potential 
to alter life as we know it today, severely damaging the global 
economy, seriously eroding the public's confidence in 
governments, constraining the civil liberties we enjoy in the 
United States, and devastating our sense of personal and 
collective security. We have an enormous stake in ensuring that 
this does not happen. At NTI, the organization where I work, we 
frequently ask ourselves and our elected representatives and 
our fellow citizens of the world: The day after a catastrophic 
instance of nuclear terrorism, what will we wish we had done to 
prevent it, and why aren't we doing that now? Thank you very 
much.
    [The prepared statement of Joan B. Rohlfing follows:]

   Prepared Statement of Joan B. Rohlfing, Senior Vice President for 
           Programs and Operations, Nuclear Threat Initiative

    Mr. Chairman and members of the Committee, I thank you for the 
invitation to testify before you on this urgent national security 
issue. I appear before you as the Senior Vice President for the Nuclear 
Threat Initiative, a charitable organization working to reduce the risk 
of use of nuclear, biological and chemical weapons. I should make 
clear, however, that the testimony I offer before you today is my own, 
and has not been cleared by NTI's Board of Directors.

               NUCLEAR TERRORISM--THE NEW NUCLEAR THREAT

    The gravest threat facing the nation today is the potential for a 
terrorist organization to use a nuclear device in the heart of an 
American city--not a ``dirty bomb'', but a nuclear yield producing bomb 
similar in effect to the one used in Hiroshima. It is this threat, the 
threat of a nuclear blast, not a radiological weapon, that I will focus 
my remarks on today because I believe that an attack using a nuclear 
bomb is the most serious, and the consequences the most dire for our 
nation, the globe, and our way of life.
    The subject of this hearing--the Department of Energy's (DOE's) 
Global Threat Reduction Initiative (GTRI) is a critical program in our 
fight to prevent nuclear terrorism, by working to prevent nuclear 
weapons materials, and dirty bomb materials from falling into the hands 
of terrorists. As such, GTRI is one of the most important national 
security programs that the US Government is currently undertaking.
    Terrorists have several pathways to a nuclear bomb: they can 
acquire, through theft or illicit purchase, a fully intact warhead from 
an existing nuclear weapon state, or, more likely, they will fabricate 
a crude nuclear device from stolen or illicitly purchased nuclear 
material--either plutonium or highly enriched uranium.
    Getting plutonium or highly enriched uranium (HEU), the essential 
ingredients of a nuclear bomb, is the hardest step in making the 
weapon. These materials are difficult to make, and current plutonium 
and HEU production technologies require large, expensive and 
technically sophisticated industrial facilities that are today within 
the exclusive domain of nation states. The most likely way a terrorist 
will get plutonium and HEU, therefore, is through illicit purchase or 
theft. Acquiring these materials is the most difficult step for 
terrorists to take and the easiest step for us to stop.
    Unfortunately, the essential ingredients of nuclear bombs are 
spread around the world, much of it in poorly secured facilities. HEU 
is of particular concern, because the simplest design for a nuclear 
device--a so-called gun type design--is one that is based on using HEU 
as the fissile material to produce a chain reaction. There are over 40 
countries that possess more than 100 research facilities that use HEU. 
The DOE's Global Threat Reduction Initiative is focused on minimizing, 
and eventually eliminating, the use of HEU in civilian applications 
around the world by helping to convert these facilities (or close them 
entirely) to ones that use low enriched uranium, a material that is not 
suitable for a nuclear weapon. The GTRI is also working to remove HEU 
from sites around the world, with an initial emphasis on HEU that came 
from the US and Russia.
    Effectively reducing nuclear danger will require global action, 
through unprecedented cooperation in over 40 nations around the world--
including nuclear weapons states. No state acting alone has sufficient 
authority, resources or influence to assuredly prevent a nuclear 
attack, especially from nuclear terrorism. Because our international 
security is only as good as the security of these materials at the 
least defended site, all nations must move quickly to either eliminate 
these dangerous materials, or improve the physical security of these 
materials wherever they exist.

                                THE GAP

    Governments around the globe, including the United States 
Government, are not yet acting with the urgency or priority of purpose 
required to address the nuclear threat--the greatest threat to our 
security.
    For example:

 Incredibly, given the threat, there is no comprehensive baseline 
        inventory of warheads and nuclear materials that must be 
        secured worldwide.
 Without this baseline inventory, it is not possible to develop a 
        coordinated and prioritized plan for securing or removing those 
        weapons/materials.
 In Russia alone, less than half of the known nuclear weapons usable 
        materials in the country have been given some form of 
        strengthened security through US-Russian cooperative threat 
        reduction efforts. While the US and other states have been 
        working with the Russian Federation to improve security over 
        the last decade, bureaucratic disagreements over site access 
        and liability continue to slow progress.
 While we recognize the threat that poorly secured HEU poses to our 
        security, we are still continuing international civil commerce 
        in this material. Despite pleas from the Director General of 
        the International Atomic Energy Agency, Mohammed ElBaradei, 
        there is no international agreement and not much leadership on 
        the subject of curtailing the widespread use of highly enriched 
        uranium around the globe.
 Beginning in 2002, the G8 pledged at Kananaskis to match U.S. threat 
        reduction funding for addressing weapons of mass destruction 
        threats, but this G8 effort is making glacial progress and 
        needs focused leadership.

              GTRI A KEY PROGRAM, BUT STRENGTHENING NEEDED

    The Department of Energy's Global Threat Reduction Initiative 
programs help to reduce, secure and eliminate highly enriched uranium, 
plutonium and dangerous radioactive sources on a global basis. But is 
GTRI doing enough, fast enough to prevent the ultimate catastrophe of 
nuclear terrorism from occurring? Has it been given the tools it needs 
to perform this most critical of missions effectively and rapidly? I 
believe it has not.
    Below I offer some reflections on what we must achieve to prevent 
terrorists from being able acquire nuclear materials, and some measures 
of how GTRI is doing against these benchmarks.
    Former Secretary Abraham deserves credit for creating this program 
one year ago. It is testament to his appreciation of the nuclear 
terrorist threat that he consolidated into a single program a number of 
important proliferation prevention programs within the Department of 
Energy in order to ensure that they were better integrated, and more 
effectively executed. But the program is not yet delivering the 
protection we need with the urgency that we need it.

                    OBJECTIVES & MEASURES OF SUCCESS

    Denying terrorists' access to dangerous nuclear material boils down 
to three essential objectives:

1. Establish a comprehensive global inventory of weapons and materials 
        and a related threat assessment;
2. Secure and/or eliminate vulnerable weapons and weapons materials 
        against this inventory on an accelerated basis;
3. Stop the spread of additional HEU around the globe by ending its use 
        in civil commerce.
    How is the GTRI doing against these three objectives?
    On the first point, creating a global inventory and threat 
assessment, DOE's Global Threat Reduction Office is working to create 
one. But as far as I and my colleagues at NTI have been able to 
discover, a risk-based global inventory does not yet exist. We 
recognize that creating a comprehensive, global inventory is not an 
easy task. It will require the integration of multiple existing 
databases, the creation of new data, and the cultivation of 
intelligence sources to fill gaps. We do not propose that this baseline 
inventory, once created, should be made publicly available. But its 
creation will be essential for understanding how much progress the 
program is making, and, more importantly, for understanding whether we 
are securing, converting and/or eliminating the highest priority 
threats.
    On the second point, securing and/or eliminating vulnerable weapons 
usable materials, the Department of Energy is clearly making progress. 
The Department's 2006 budget indicates a goal of converting five 
research reactors (out of an estimated 66 remaining) this year from HEU 
to non weapons-usable low enriched uranium (LEU) fuel. It estimates 
that it will take until 2014 to convert all 66 remaining reactors. But 
the metrics DOE is using may be incomplete.
    We are not confident that the estimate of 66 remaining reactors 
includes all facilities that may have civil HEU. The DOE program to 
convert research reactors was not designed to address other civilian 
applications and facilities that use HEU, such as critical and 
subcritical assemblies (a type of research facility), or Russian 
nuclear icebreakers. There is also evidence, for example, that a 
significant additional number of HEU research facilities may exist 
within Russia, and we know that other HEU facilities of Chinese or 
other origin exist that have not been included in this tally. A July 
2004 GAO report on DOE's reactor conversion program cites a figure of 
128 facilities around the world that contain 20 kilograms or more of 
HEU. Moreover, can we say that we are working with the urgency needed 
to stem this threat if we aren't planning--even with the more modest 
inventory assumptions in the DOE budget--to finish the job until 2014?
    A similar line of reasoning can be applied to the GTRI program 
element that is responsible for returning US-origin spent fuel to the 
US. Under the current budget plan, the US program will take spent HEU 
fuel back from foreign research reactors until 2019. But the material 
that has been declared eligible for ``take-back'' under the DOE program 
has been narrowly defined. The General Accounting Office, in a November 
2004 report on the US foreign fuel return program, found that another 
12,300 kilograms of HEU (enough for 200-250 nuclear weapons) that had 
been exported by the US was not eligible for return because the DOE, 
when establishing the fuel return program, limited the types of fuel 
that would be covered by the program. We need to broaden our definition 
of what the US considers eligible to bring back to the US, or send to 
Russia, including considering additional, third party disposition paths 
for some of this material.
    This brings me to the third point. Surprisingly, the US continues 
to export HEU for use in research facilities abroad. The US is not 
alone in this practice, other HEU producers also continue to produce 
HEU for use in civil facilities. Even as we try to get our arms around 
the global inventory, and rightly spend money to convert facilities and 
eliminate HEU around the globe, the HEU ``spigot'' remains on. As of 
yet, no global norm against the use of HEU for civilian applications 
exists.
    We must work to establish a global norm against use of HEU for 
civil purposes on an urgent basis. We must create the policy, legal and 
regulatory frameworks to support this long-term vision. Within the US, 
we have implicitly been promoting this norm through the very 
nonproliferation programs that now comprise the DOE's Global Threat 
Reduction Initiative. But we need to move beyond an ``implicit'' policy 
of minimizing use of HEU, to an explicit one. Specifically, the US 
must:

1) Actively lead the global community in establishing a global norm 
        that HEU in civil commerce be minimized, and eventually 
        eliminated; and
2) Engage its HEU recipients in a serious dialogue about conversion on 
        a defined timetable.
    While US policy on minimizing HEU in civil commerce has been 
codified in law through the ``Schumer Amendment'' to the Energy Bill, 
(which states that the US may not transfer HEU to another state for use 
in research reactors unless it has provided assurances that it will 
convert to alternative materials for operation when technically 
feasible) this policy was recently dealt a serious blow by changes 
proposed to it in H.R. 6, the House passed Energy Policy Act of 2005. 
The amendment to the Schumer language in H.R. 6 would create an 
exemption from the conversion requirement for nuclear facilities if the 
costs of such conversion exceed 10 percent. The new language completely 
undercuts longstanding US policy to minimize HEU in civil commerce, and 
is moving us in the opposite direction of where we need to be globally. 
The US will have no standing to press the rest of the world to 
undertake nuclear terrorism prevention measures if it continues to hold 
itself, and the recipients of its HEU, to another standard.

                     PROGRAMMATIC TOOLS FOR SUCCESS

    My testimony would be incomplete without some mention of the 
programmatic tools that federal program mangers will need to 
effectively execute the essential elements of the GTRI on a time urgent 
basis.
    The rules and organizational structures of large government 
bureaucracies and their oversight committees unfortunately do not 
facilitate nimble program execution. This is not so important for 
handling routine matters, where the price of slow action is often only 
inconvenience. But where the program objective is to prevent nuclear 
terrorism, the price of slow action could easily be loss of life, 
property and freedom on an unprecedented and catastrophic scale. A 
nuclear terrorism event has the potential to alter life as we know it 
today--severely damaging the global economy, seriously eroding the 
publics' confidence in governments, constraining the civil liberties we 
enjoy in the US, and devastating our sense of personal and collective 
security. We all have an enormous stake in ensuring that this does not 
happen. Accordingly, it is in our self-interest to explore innovative 
ways in which nuclear terrorism prevention programs, such as GTRI, can 
be accorded special tools to expedite action--even if this means 
granting unique or unprecedented authorities and execution mechanisms.
    Several ideas come to mind:

 Provide critical funding flexibility by allowing GTRI program 
        managers to move funds between program accounts as needed to 
        act on time urgent opportunities for action. This could 
        specifically take the form of allowing managers to move funds 
        that exceed the reprogramming threshold allowed for other DOE 
        programs. Another component of budget flexibility lies in the 
        use of ``uncosted balances''. Program managers should be 
        allowed to determine the best use of these funds within the 
        program, and not have these balances reclaimed by Congress or 
        the Administration to offset future budget requirements.
 Congress should provide sufficiently broad legal authorities for GTRI 
        managers to execute their mission in an expeditious manner. For 
        example:
     The GTRI Program should be given explicit authority to provide a 
            broad range of incentives to reactor facility operators to 
            convert facilities or eliminate weapons usable materials 
            expeditiously.
     The Program should also be given broad flexibility to accept 
            nuclear materials for ultimate disposition in the US that 
            is not US-origin. This will require a provision, at a 
            minimum, to expedite the lengthy environmental reviews that 
            are required for any materials outside fo the scope of the 
            existing (US-origin) fuel return program.
    These kinds of authorities, mechanisms and processes are essential 
to the US Government's ability to move with the alacrity it needs to 
perform the terrorism prevention mission. Unfortunately, today, we must 
often engage in multi-year approval and funding processes before some 
operations can be completed.
    The above represent a few basic ideas of how we might facilitate a 
more streamlined and expeditious program. We should challenge ourselves 
to think of additional, and more creative management approaches, 
establishing a kind of ``model-program'' approach to nuclear terrorism 
prevention programs. We must recognize that we don't have the luxury of 
time to pursue a ``business as usual'' approach to problem solving, and 
act accordingly.

                               CONCLUSION

    In conclusion, I want to recognize the many men and women of our 
government, and other, who are working around the world on the critical 
mission of locking down nuclear weapons and materials. There is no more 
important task. The global threat of nuclear terrorism has never been 
higher.
    But we must ask ourselves whether we have given our government 
servants the tools they need to get the job done with the urgency that 
it requires. We are in a race between cooperation and catastrophe. 
Whether we win that race will depend upon how smartly and expeditiously 
we act. At NTI, we frequently ask ourselves, our elected 
representatives, and our fellow citizens of the world: the day after a 
catastrophic instance of nuclear terror, what will we wish we had done 
to prevent it? Why aren't we doing that now?

    Mr. Whitfield. Thank you, Ms. Rohlfing, and Dr. Ferguson. 
We appreciate your testimony very much.
    I know, Ms. Rohlfing, you focused on nuclear devices 
primarily, but I want to ask both of you a question relating to 
the agreement states, the 33 states pursuant to the Atomic 
Energy Act of 1954. Are any of you aware of additional reports 
other than this masters thesis in which someone has questioned 
or alleged that these 33 states are much more effective in 
dealing with sealed sources than the other 17?
    Mr. Ferguson. No, Mr. Chairman, I am not. And I have been 
working on this issue for the last 3.5 years. I know the 
Government Accountability Office has issued a number of 
reports, and they have looked at the agreement State system. 
But I don't believe they have done that kind of comparison, 
comparing the agreement States to the nonagreement States.
    Mr. Whitfield. What about you, Ms. Rohlfing?
    Ms. Rohlfing. I don't have anything to add to that since I 
have been primarily focused on the weapons-usable material.
    Mr. Whitfield. Right. Now, you had a number of suggestions 
of ways to improve this program. Are you advocating that it 
needs more money? Or if you were in charge, what specifically 
would you do that is not being done right now?
    Ms. Rohlfing. I think it needs more money. That is just one 
component. I think, more importantly than money, this needs to 
really be elevated on the national agenda. In terms of the 
national leadership on the issue, I would love to see more 
Members of Congress holding hearings on this issue, informing 
themselves, educating themselves, understanding the danger. I 
would love to see the same within the administration in terms 
of the priority level of attention that it accords to this 
subject both in terms of day-to-day management and oversight of 
the issue and execution of the programs within the government, 
but particularly with respect to our diplomatic engagement.
    Mr. Longsworth mentioned that diplomacy and diplomatic 
challenges, access is a huge hurdle in being able to convert 
day-to-day some of the research reactors and have some of the 
vulnerable nuclear materials returned. But we have not yet made 
this the No. 1 security agenda in our diplomatic engagements.
    And, finally, I would say, when I say Apollo-like, 
Manhattan-type program, I think we really do need to create 
something that is a model program in terms of giving the 
governmental personnel who are working on this issue broader 
authorities, innovative authorities, flexibility to spend money 
as opportunities do present themselves, and we have done none 
of that.
    Mr. Whitfield. Dr. Ferguson, you pointed out in your 
testimony that you believe it is much more probable that a 
well-organized terrorist group can obtain a radiological 
dispersal device or dirty bomb before it could assemble a real 
nuclear weapon, unless they were able to steal a nuclear 
weapon. And you point out that this dispersal device is not a 
weapon of mass destruction but rather a weapon of mass 
disruption. Please tell us, what do you think would be the 
short- and long-term health and economic consequences of a 
successful dirty bomb in a major metropolitan area?
    Mr. Ferguson. Mr. Chairman, even the worst dirty bomb that 
I can imagine or other security experts I have talked to can 
imagine doesn't come nearly as close to what even a very crude 
low-yield nuclear weapon can do. It is like a firefly to--I am 
sorry, a lightning bug to lightning in terms of comparison, a 
dirty bomb to a nuclear weapon.
    That being said, we can't discount the threat of RDDs or 
dirty bombs because they can create, as you point out and I 
point out in my testimony, a weapon of mass disruptive type 
effect or weapon of mass effect situation, where we have 
psychological and social effects run rampant, we have got 
people who would be afraid to move back into a contaminated 
area. If the government can't convince them that we have 
cleaned the area down to safe levels, real estate would 
plummet. The economy in the local area would be affected. And 
then we would have to fear that these terrorists who struck 
with a dirty bomb in New York or Washington or some American 
city could do it at some other places within the United States 
or other parts of the world and shut down our economy. That 
would be my greatest fear. It is not that we would have a 
tremendous loss of life. Maybe in the order of a few hundred 
dead in the near term is sort of the worst case that I can 
imagine.
    Mr. Whitfield. Do both of you feel that there is real 
disagreement within the government on where the priority should 
be set for the policy?
    Ms. Rohlfing. Disagreement. I am not sure I would 
characterize disagreement within the government, and as a 
nongovernment witness, I am probably not the best person to 
address that question. But I would observe that I think there 
has been a lack of attention at appropriate levels to this 
issue, and therefore, we have not ended up with funds on the 
right priorities.
    For example, the very important program that we are 
discussing at this hearing, Global Threat Reduction Initiative, 
with a budget of, what, approximately $93 million, is a drop in 
the bucket compared to the amounts of money we are spending on 
our overall national security and almost any other budget line 
that you can think of. That would suggest to me, especially 
given the leverage that we get from addressing this aspect of 
the problem, the front end, we call this locking down nuclear 
weapons and materials the first line of defense. If you don't 
get this right, then you have got to worry about having a good 
second, third and fourth line of defense in place. And while we 
should absolutely have multiple layers of defense, it is much 
harder once nuclear material is lost to track it down. It is 
like finding a needle in a haystack, or to find a weapon, God 
forbid, should it get into the hands of a terrorist 
organization. So we need to be doing more faster on this 
particular aspect.
    Mr. Whitfield. I would point out that, of course, that $93 
million is one source of funds. But there are additional funds 
being spent, obviously, on nonproliferation. Now, both of you 
talked about the Schumer amendment, and I think that was 
relatively well covered in the first panel. But both of you 
basically feel like that what happened is a serious mistake, I 
take it. Is that correct?
    Mr. Ferguson. Yes, sir, that is correct.
    Ms. Rohlfing. And I would just add, since I didn't include 
it in my oral statement, that I strongly agree that the action 
taken in the House energy bill is a serious blow to the overall 
policy objective that the United States has been pursuing for 
several decades, to try and reduce and eventually eliminate 
highly enriched uranium in civil commerce. And we have got to 
keep our eye on the big objective here, which is that we are 
going to have no credibility as a Nation convincing other 
nations to do the very things we are trying to do in this 
program if we continue to push new material out the door even 
if it is to the Canadians and, in fact, I might say, especially 
if it is to the Canadians. I will stop there, but I would be 
happy to describe why that is so if it is useful.
    Mr. Whitfield. Well, I have no further questions.
    Dr. Burgess, would you have some?
    Mr. Burgess. Yes, please describe why that is useful with 
the Canadians.
    Ms. Rohlfing. The Canadians are using HEU to make targets 
which they irradiate in a research reactor to create the 
medical isotope Molybdenum 99. And there is no question that 
medical isotope is important. It is widely used for beneficial 
therapeutic purposes, and it is important to the U.S. market, 
and in particular, Canada serves, I think it is roughly 60 
percent of the global market for this particular medical 
isotope. But it is not the only producer. One of the other 
major producers is the Republic of South Africa. South Africa 
right now maintains quite a large stockpile of highly enriched 
uranium, and they are still operating their research reactor 
both on highly enriched uranium fuel; they are also using HEU 
targets. It is important that we be able to convince South 
Africa. It is important that we be able to convince all other 
countries that are using highly enriched uranium either for 
fuel or for other civil applications to convert these 
facilities if we are going to have a prayer of really 
eliminating this inventory, taking it out of the sites of 
terror organization. But as long as you allow an exception for 
Canada, you have got to allow an exception for everyone else. 
And so I agree with Mr. Ferguson--Dr. Ferguson. It guts our 
policy, and it really handicaps our ability to achieve this 
much more important national security objective.
    Mr. Burgess. Mr. Chairman, in the interest of time, I will 
yield back.
    And we are going to go to closed session. Is that correct?
    Mr. Whitfield. Yes, that is correct.
    Mr. Burgess. I yield back.
    Mr. Whitfield. Mrs. Blackburn, do you have any questions?
    Mrs. Blackburn. Thank you, Mr. Chairman. I do have one 
follow-up question to that.
    And I thank both of you for your testimony. I will tell 
you, it is the type thing that you read and you shiver when you 
read it because it does cause you to stop and kind of take 
stock and think.
    And Mr. Ferguson or Dr. Ferguson, I guess this really would 
come to you. Let us talk a little bit about the intelligence 
gathering, the counterproliferation measures, Special 
Operations that should be there to thwart proliferation.
    And, as you said, Ms. Rohlfing, keeping an eye on the ball 
of where these things are going. Do you see DOE meshing its 
operations adequately with other countries or organizations 
that have the type information in this intelligence gathering 
that we need?
    Mr. Ferguson. Well, ma'am, I don't know exactly how DOE 
coordinates with the intelligence community because I have 
never worked with either the intelligence community or DOE. But 
I have worked in the State Department, so I do have some 
familiarity looking at other agencies.
    What I was recommending is that there should be this type 
of intelligence sharing that isn't already taking place. And 
what I do know is that many Department of Energy officials and 
government contractors go to these reactor sites and other 
sites in Russia and other countries that we are concerned 
about, and when they come back, they are required under law and 
Department requirements to file a trip report. There are filing 
cabinets full of trip reports at the Department of Energy, and 
we could be mining that initially for information. So that is 
one piece of information I know we already have out there, and 
I don't know if we are doing proper analysis of that 
information.
    What I am also recommending is we have our intelligence 
agents trying to develop detailed profiles of every one of 
these facilities. Although it is a relatively large number, as 
Ms. Rohlfing was saying, but there are only about 100 or so 
facilities. So I think with the intelligence budget we have in 
this country, we could develop the kind of detailed 
intelligence profiles we need for every one of these 
facilities.
    Ms. Blackburn. So, in essence, what you are saying is that 
they may not be meshing it adequately to meet the needs that we 
have, but the information is there. They just do not mine it 
appropriately.
    Mr. Ferguson. I think a lot of the information is there. I 
think there might be other gaps in information that we need to 
find out. But we are not going to be able to identify those 
gaps until we direct these agencies to put in place this kind 
of smart program.
    Ms. Blackburn. Okay. Thank you.
    Mr. Chairman, I will stop with that and wait for the next 
session.
    Mr. Whitfield. Well, thank you, Ms. Blackburn.
    And since I see there are no other questions for this 
panel, I want to thank you all very much for your testimony. We 
have read it and are looking at it, and your input is quite 
valuable. So, with that, that will conclude the public portion 
of this hearing.
    And after consultations with the minority, I will now offer 
a motion that the subcommittee move into executive session. The 
Chair moves that, pursuant to Clause 2G of Rule 11 of the Rules 
of the House, the remainder of this hearing will be conducted 
in executive session to protect information that might endanger 
national security.
    Is there any discussion on the motion? If there is no 
discussion, pursuant to the rule a recorded vote is ordered. 
Those in favor, say aye. The ayes appear to have it. The ayes 
have it, and the motion is agreed to. We will reconvene in just 
a few short minutes in room 2218, and that portion of our 
hearing will be closed to the public and open only to our 
witnesses, the members and staff, to such members and witnesses 
who have a Department of Energy Q clearance. And the 
subcommittee will recess. And thank you all very much.
    [Whereupon, at 3:57 p.m., the subcommittee proceeded in 
closed session.]

                                 <all>

</pre></body></html>
